<

\
K

EXHIBIT A

Case l:12-cr-00303-NLH Document 566 Filed 05/05/20 Page 1 of 2 PagelD: 19263

UNITED STATES COURT OF APPEALS
FOR THE THIRD CIRCUIT

No. 15-2812

UNITED STATES OF AMERICA
v.
ADAM LACERDA a/k/a Robert Klein,
Appellant

No. 15-4023

UNITED STATES OF AMERICA
v.
GENEVIEVE MANZONI,
Appellant

No. 16-2220

UNITED STATES OF AMERICA
v.
IAN RESNICK,
Appellant

Case 1:12-cr-00303-NLH Document 566 Filed 05/05/20 Page 2 of 2 PagelD: 19264

On Appeal from the United States District Court
for the District of New Jersey
(D.N.J. l-12-cr-00303-001, l-12-cr-00303-010, and
l-12-cr-00303-003)
District Judge: Honorable Noel L. Hillman

Submitted Under Third Circuit L.A.R. 34.1(a)
March 11,2019
Before: McKEE, PORTER, and ROTH, Circuit Judges

JUDGMENT

These causes came to be considered on the record from the District Court for the
District of New Jersey and were submitted on March 11, 2019. On consideration
whereof,
it is hereby ORDERED and ADJUDGED by this Court that the judgments of the
District Court entered on June 30, 2015, December 16, 2015, and April 27, 2016, are
hereby AFFIRMED. All of the above in accordance with the Opinion of this Court. No
costs shall be taxed.

ATTEST:

s/ Patricia S. Dodszuweit
Clerk
Dated: May 5, 2020

*
UNITED STATES OF AMERICA v. ADAM LACERDA a/k/a Robert Klein, Appellant;UNITED STATES
OF AMERICA v. GENEVIEVE MANZONI, Appellant;UNITED STATES OF AMERICA v. IAN
RESNICK, Appellant
UNITED STATES COURT OF APPEALS FOR THE THIRD CIRCUIT
2020 U.S. App. LEXIS 14278
No. 15-2812, No. 15-4023, No. 16-2220
March 11, 2019, Submitted Under Third Circuit L.A.R. 34.1(a)
May 5, 2020, Filed
Editorial Information: Prior History
{2020 U.S. App. LEXIS 1}On Appeal from the United States District Court for the District of New Jersey.
(D.N.J. Nos. 1-12-cr-00303-001, 1-12-cr-00303-010, and 1-12-cr-00303-003). District Judge: Honorable
Noel L. Hillman.United States v. Lacerda. 929 F. Supp. 2d 349, 2013 U.S. Dist. LEXIS 31322 (D.N.J.,
Mar. 7, 2013)
For Adam Lacerda. Appellant: Mark E. Cedrone, Jesse D.
Abrams-Morley, Aubrey C. Emrich, CEDRONE & MANCANO, LLC, Philadelphia, PA.
For Genevieve Manzoni, Appellant: Robert L. Tarver, Jr., LAW
OFFICES OF ROBERT L. TARVER, JR., 66 South Main Street, Toms River, NJ.
For Ian Resnick, Appellant: Michael E. Riley, LAW OFFICES
OF RILEY AND RILEY, Marlton, NJ.
For Appellee: Craig C. Carpenito, Mark E. Coyne, Deborah
Prisinzano Mikkelsen, Office of United States Attorney, Newark, NJ.
Judges: Before: McKEE, PORTER, and ROTH, Circuit Judges.
Counsel

CASE SUMMARYIn fraud case, court affirmed the judgments of conviction and sentences. Among
noteworthy matters, the court held that overview testimony that opines on ultimate issues of guilt, makes
assertions of fact outside of the officer's personal knowledge, or delves into aspects of the investigation
in which he did not participate is inadmissible.
OVERVIEW: HOLDINGS: [1]-Overview testimony that opines on\jltimate issues of guilt, makes
assertions of fact outside of the officer's personal knowledge, or delves into aspects of the investigation
in which he did not participate is inadmissible. But an officer who is familiar with an investigation or was
personally involved may tell the story of that investigation-how the investigation began, who was
involved, and what techniques were used; [2]-The district court weighed defendant L's right to counsel of
choice against the attorney's serious actual and potential conflicts of interest and, ultimately, determined
those conflicts could neither be waived nor cured by anything short of disqualification. That conclusion
was neither arbitrary nor an abuse of discretion; [3]-Among other matters in this fraud case, the court
held that L's sentence was procedurally sound and substantively reasonable.
OUTCOME: The court affirmed the judgments of conviction and sentences entered against defendants.

CIRHOT

1

© 2020 Matthew Bender & Company, Inc., a member of the LexisNexis Group. All rights reserved. Use of this product is subject to the
restrictions and terms and conditions of the Matthew Bender Master Agreement.

90293054

Case: 16-2220

Document: 167

Page: 1

Date Filed: 05/05/2020

PRECEDENTIAL
UNITED STATES COURT OF APPEALS
FOR THE THIRD CIRCUIT

No. 15-2812

UNITED STATES OF AMERICA
v.
ADAM LACERDA a/k/a Robert Klein,
Appellant

No. 15-4023

UNITED STATES OF AMERICA
v.
GENEVIEVE MANZONI,
Appellant

No. 16-2220

UNITED STATES OF AMERICA
v.
IAN RESNICK,
Appellant

Case: 16-2220

Document: 167

Page: 2

Date Filed: 05/05/2020

On Appeal from the United States District Court
for the District of New Jersey
(D.N.J. Nos. l-12-cr-00303-001, l-12-cr-00303-010, and
l-12-cr-00303-003)
District Judge: Honorable Noel L. Hillman

Submitted Under Third Circuit L.A.R. 34.1(a)
March 11,2019
Before: McKEE, PORTER, and ROTH, Circuit Judges
(Filed: May 5, 2020)

Mark E. Cedrone
Jesse D. Abrams-Morley
Aubrey C. Emrich
Cedrone & Mancano, LLC
123 South Broad Street, Suite 810
Philadelphia, PA 19109
Counsel for Appellant Adam Lacerda
Robert L. Tarver, Jr.
Law Offices of Robert L. Tarver, Jr.
66 South Main Street
Toms River, NJ 08757
Counsel for Appellant Genevieve Manzoni
Michael E. Riley
Law Offices of Riley and Riley
2 Eves Drive, Suite 109
Marlton, NJ 08053
Counselfor Appellant Ian Resnick
Craig C. Carpenito
Mark E. Coyne
Deborah Prisinzano Mikkelsen
Office of United States Attorney
970 Broad Street, Room 700
Newark, NJ 07102
Counsel for Appellee

2

Case: 16-2220

Document: 167

Page: 3

Date Filed: 05/05/2020

OPINION OF THE COURT

PORTER, Circuit Judge.
The Vacation Ownership Group (“VOG”) billed itself
as a sort of advocacy group helping victims of timeshare fraud
get out of their timeshare debts. After a lengthy and complex
trial, a jury determined that VOG had in fact defrauded its
customers, and that Adam Lacerda, Ian Resnick, and
Genevieve Manzoni were each knowing participants in that
fraud. In this consolidated appeal, they now challenge their
judgments of conviction, raising several claims of error. For
the reasons discussed below, we will affirm their respective
convictions and sentences.
I.

Background
A.

VOG’s Fraudulent Activity

A timeshare is a form of shared property ownership in
which multiple people own the rights to use a specific vacation
or resort property. These properties are often units in a resort
condominium, in which each timeshare owner has an allotted
period of time to use the property. When one buys a timeshare,
he typically makes a down payment on the property and
finances the balance of the purchase price. These loans are
commonly referred to as “mortgages” in the timeshare
industry. In addition to these upfront costs, timeshare owners
are also required to pay annual maintenance fees. It is not
unusual for timeshare owners to fall prey to high-pressure sales
tactics and commit to spending more money than they can
comfortably afford. Later, they may seek to settle these debts
or cancel their timeshares.
In 2009, while working for Wyndham Vacation Resorts,
Inc. (a timeshare sales company), Adam Lacerda and his wife,
Ashley Lacerda, founded VOG. VOG marketed itself as a
timeshare consulting company and claimed that it could help
customers cancel, purchase, or upgrade their timeshares.

3

Case: 16-2220

Document: 167

Page: 4

Date Filed: 05/05/2020

Lacerda was the president and chief executive officer of VOG,
and his wife was the chief operating officer. Together, they
exclusively controlled VOG’s bank accounts and post office
box.
Lacerda created phone scripts for VOG’s sales
representatives to use when speaking with timeshare owners.
One of these scripts was VOG’s “bank settlement” pitch. This
sales pitch was riddled with misrepresentations. Following this
script, the VOG representatives used personal information
compiled by VOG in “customer lead sheets” to make
unsolicited calls to unsuspecting timeshare owners. The
representatives said they were calling on behalf of a property
owners’ association to follow up on the owner’s recent
complaints. This was not true. The representatives also claimed
they were working with the bank that held the loan for the
owner’s timeshare mortgage. This was also not true. They then
promised to review the owner’s account—which they could
not do because they had no access to that account—and then to
call the owner back.
During a follow-up call, VOG representatives offered to
settle the timeshare owner’s debt at a fraction of the remaining
balance, for a negotiated fee. Later, during a closing call, the
representatives had the timeshare owner electronically sign
VOG’s contract and pay its fee. The representatives then
promised that the “mortgage would be paid off in full” and the
timeshare owner would receive a “deed free and clear.” But
none of that happened. Instead, VOG just pocketed the money.
Lacerda also trained his VOG employees to use a
fraudulent phone script for a timeshare “cancellation” sales
pitch. Again, VOG representatives made unsolicited calls to
timeshare owners and falsely told them that VOG had received
their complaints, that VOG would do all the necessary work to
cancel the owners’ timeshares, and that cancellation would not
damage the customers’ credit ratings.
But VOG did not work to cancel the owners’
timeshares. Instead, after receiving the timeshare owners’
money, VOG sent them an eight-step process for cancelling the
timeshares themselves and told them to stop making their loan
payments. Eventually the timeshare owners received default

4

Case: 16-2220

Document: 167

Page: 5

Date Filed: 05/05/2020

notices from the timeshare developers. When the owners
complained to VOG, VOG instructed them to allow the
developers to foreclose. Typically, this would lead to a
nonjudicial foreclosure proceeding, which is common in the
industry. This proceeding, Lacerda knew, would result in the
cancellation of the owners’ timeshare debt, but at the cost of
the timeshare deed, any equity the owners had, and, of course,
the owners’ credit ratings.
VOG employed additional misrepresentations: Lacerda
impersonated bank officials on calls, altering his voice and
using a spoofing device to alter his phone number. And VOG’s
website falsely displayed the Better Business Bureau seal,
advertising itself as an A+ rated business, and claimed to be a
member of the American Resort Development Association.
Not even the names used at VOG were true. Under
Lacerda’s direction, VOG representatives used false names
while interacting with potential customers. These false names
allowed Lacerda and other former Wyndham employees to
violate their non-compete agreements and hide their identity
from former clients at Wyndham. This was important because
VOG’s customer lead sheets were comprised almost
exclusively of Wyndham timeshare owners.
While employed by Wyndham, Ian Resnick sent
customer lead sheets to VOG and received a kickback for every
resulting sale. In August 2010, Resnick left Wyndham to join
VOG full time. Using the bank settlement and timeshare
cancellation scripts, Resnick defrauded several customers.
Recognizing Resnick’s talents, Lacerda promoted him to
Senior Contract Analyst.
Genevieve Manzoni, another Wyndham-alumna, joined
VOG in October 2010. As a VOG representative, Manzoni
showed great initiative, inventing her own “settlement”
numbers on the fly. She, too, assumed a management role,
overseeing other VOG sales representatives.
In November 2010, the FBI raided VOG’s offices and
the Lacerdas’ home. Several VOG representatives left the
company following the raid, including Resnick. So Lacerda
convened an office-wide meeting where his lawyers, including

5

Case: 16-2220

Document: 167

Page: 6

Date Filed: 05/05/2020

Marc Neff, assured VOG staff that everything was okay. They
told the employees that only Lacerda was under investigation,
and that Neff had reviewed the sales scripts and verified that
everything was legal. VOG abandoned the bank settlement
pitch and revised the timeshare cancellation pitch to remove
any references to working with the banks, while leaving many
other misrepresentations in place. With these assurances and
changes, many of VOG’s representatives, including Resnick,
returned and VOG resumed and expanded its operations.
Resnick continued receiving promotions, working as
VOG’s Director of Training, then Director of Training and
Compliance, and then Vice President of Sales and Compliance.
While receiving compensation at VOG, Resnick and Manzoni
also obtained unemployment benefits from New Jersey.
B.

Trial of VOG Defendants

In April 2012, Lacerda, Resnick, Manzoni, and several
other VOG employees were arrested after being charged with
various counts of mail and wire fraud. VOG then changed its
name to VO Financial and continued operations, still using the
same misrepresentation-riddled sales pitches. Later, a
superseding indictment was filed charging Lacerda, Resnick,
Manzoni, and fifteen other VOG employees with conspiracy to
commit mail and wire fraud. Lacerda was also charged with
nine counts of mail fraud and three counts of wire fraud arising
from his VOG scheme, and a final count of mail fraud for
wrongfully receiving unemployment benefits while he was
employed and receiving compensation at VOG.1 Resnick was
charged with two counts of mail fraud and three of wire fraud
for his work at VOG, and another count of mail fraud for his
unemployment fraud. And Manzoni was charged with one
count of wire fraud for her work at VOG and a separate count
of wire fraud for, allegedly, wrongfully receiving
unemployment benefits. Other VOG employees received
similar charges.

i

Lacerda, together with his wife, was also charged with
conspiracy to commit money laundering and four counts of
money laundering, but these were dismissed by order of the
District Court as a matter of law.
6

Case: 16-2220

Document: 167

Page: 7

Date Filed: 05/05/2020

Most of the VOG defendants negotiated plea
agreements with the government. But five defendants—Adam
and Ashley Lacerda, Resnick, Manzoni, and Joseph DiVenti—
took their cases to trial. Relevant to this appeal, about four and
a half months before trial, the District Court disqualified
Lacerda’s then-attorney, Neff, as a potential witness and
denied replacement counsel’s requested continuance. It also
denied Manzoni’s motion to sever her VOG-related fraud
charges from her unemployment-related fraud charges.
The government’s first witness at trial was FBI Special
Agent John Mesisca, an experienced agent in wire and mail
fraud investigations and the lead investigator in the case.
Mesisca was allowed, over appellants’ objections, to provide
an extensive overview of his investigation. During trial, again
over appellants’ objections, the District Court also excluded
certain hearsay evidence and allowed other evidence for
impeachment purposes.
The jury returned guilty verdicts on all counts related to
Lacerda. The District Court sentenced him to 324 months
imprisonment with three years of supervised release, and it
ordered him to pay restitution of $2,679,656.09. The jury also
found Resnick guilty on all counts related to him. The District
Court sentenced him to 216 months imprisonment with three
years of supervised release and ordered him to pay restitution
of $2,735,142.99. While the jury found Manzoni guilty of both
the conspiracy charge and wire fraud in relation to her work at
VOG, it acquitted her on the charge of unemployment fraud.
The District Court entered judgment against Manzoni on the
conspiracy and mail fraud charges, sentenced her to 42 months
imprisonment with three years of supervised release, and
ordered her to pay restitution of $105,422.2 The District Court
also ordered the forfeiture of all of VOG’s gross proceeds.
This appeal follows. The District Court had jurisdiction
over the several crimes charged in this case under 18 U.S.C.
§ 3231. We have jurisdiction over appeals from final
judgments and orders under 28 U.S.C. § 1291.

2 The jury also found Ashley Lacerda guilty on all
remaining counts but acquitted Joseph DiVenti.
7

Case: 16-2220

II.

Document: 167

Page: 8

Date Filed: 05/05/2020

Overview Testimony
A.

Proper Overview Testimony Is Admissible

Special Agent Mesisca’s testimony, including both
cross and redirect examination, would extend into the third day
of trial. On appeal, Lacerda, Resnick, and Manzoni each take
issue with Mesisca’s testimony, arguing that it constituted
impermissible overview testimony. We have never addressed
the permissible scope and limits of overview testimony in a
precedential opinion.
Our sister circuits, however, have reviewed overview
testimony. They have analogized it to summary testimony. See,
e.g., United States v. Moore, 651 F.3d 30, 55-56 (D.C. Cir.
2011). The main difference between summary and overview
testimony is that summary testimony comes at the end of trial
and overview at the beginning, but both try to connect the dots
and convey the big picture to the jury in complex prosecutions.
United States v. Banks, 884 F.3d 998, 1023 (10th Cir. 2018).
Summary evidence may be safer because the evidence
that the officer is connecting has already been heard by the
jury. See Moore, 651 F.3d at 56 (citing United States v. Lemire,
720 F.2d 1327, 1349, n.33 (D.C. Cir. 1983)). Because
witnesses can change their stories and objections may be
sustained, some of the testimony relied on during the initial
overview may never materialize at trial. United States v. Casas,
356 F.3d 104, 119-20 (1st Cir. 2004).
Vouching is also a problem with overview testimony.
See Moore, 651 F.3d at 56-57. Under Federal Rule of Evidence
608(a), a party can only bolster the credibility of a witness after
that witness’s credibility has been attacked. Because overview
testimony is the first testimony offered, no witness’s credibility
has yet been attacked. Vouching for a witness who has not yet
testified would, therefore, be inappropriate.
Another serious problem with overview testimony is
that it sometimes relies on anticipated witnesses. Thus, it may
violate confrontation rights. Testimonial statements cannot be
offered against a defendant without the opportunity for cross
examination. Crawford v. Washington, 541 U.S. 36 (2004). If
overview testimony previews the answers of an anticipated
8

Case: 16-2220

Document: 167

Page: 9

Date Filed: 05/05/2020

witness, such a violation is not easily cured if the expected
witness later fails to testify.
The D.C. Circuit has explained:
Because a witness presenting an overview of the
government’s case-in-chief runs the serious risk
of permitting the government to impermissibly
“paint a picture of guilt before the evidence has
been introduced,” and may never be introduced,
we join the circuits that have addressed the issue
in condemning the practice.
Moore, 651 F.3d at 60 (citations omitted).
The D.C. Circuit concluded that the government could
call as its first witness a law enforcement officer, who is either
familiar with the investigation or was personally involved, to
explain how the investigation began, what law enforcement
entities were involved, and what techniques were used. Id. at
60-61. However, the overview witness could not opine on the
ultimate issues of guilt, anticipate evidence that the
government hoped to introduce, or express an opinion about
the strength of that evidence or the credibility of any potential
witnesses. Id. at 61; see also United States v. Rosado-Perez,
605 F.3d 48, 55 (1st Cir. 2010) (cautioning, before government
has presented supporting evidence, against presenting an
overview of criminal investigation in which witness did not
participate); United States v. Brooks, 736 F.3d 921, 930 (10th
Cir. 2013) (allowing overview based on personal knowledge,
not on hearsay nor on an opinion of defendant’s guilt); but see
United States v. Khan, 794 F.3d 1288, 1300 (11th Cir. 2015)
(overview proper where officer had personal knowledge of
evidence due to officer’s role as lead investigator and his
review of evidence).
We join our sister circuits and now hold that overview
testimony that opines on ultimate issues of guilt, makes
assertions of fact outside of the officer’s personal knowledge,
or delves into aspects of the investigation in which he did not
participate is inadmissible. But an officer who is familiar with
an investigation or was personally involved may tell the story
of that investigation—how the investigation began, who was

9

Case: 16-2220

Document: 167

Page: 10

Date Filed: 05/05/2020

involved, and what techniques were used. In addition, with
proper foundation, he may offer lay opinion testimony and
testify about matters within his personal knowledge.
B.

Summary of Special Agent Mesisca’s
Overview Testimony

Having determined the applicable rule, we now return
to the appellants’ objections to Special Agent Mesisca’s
overview testimony. Evidentiary objections are generally
reviewed for an abuse of discretion. United States v. Georgiou,
777 F.3d 125, 143 (3d Cir. 2015). This standard applies to the
admission of overview testimony. See Rosado-Perez, 605 F.3d
at 54 (citing Hall, 434 F.3d 42, 56-57 (1st Cir. 2006)).
However, although district courts are “ordinarily afforded
broad discretion to determine the manner in which evidence
will be received,” in light of the pervasive risks of unfair
prejudice, overview testimony requires closer review. Moore,
651 F.3d at 58. Nevertheless, even if we find error in the
admission of overview testimony, we can still affirm if the
error was harmless. Rosado-Perez, 605 F.3d at 54.
Applying our holding here, the District Court did not
commit reversible error in admitting Mesisca’s testimony.
Mesisca testified about his background, experience, and
qualifications as the lead investigator in this case. He explained
that the FBI had received a complaint about VOG from a
timeshare developer, Flagship. Following a meeting with
representatives of that company, Mesisca opened an
investigation into VOG. He explained how he had subpoenaed
VOG’s bank records and explained why certain checks were
significant to his investigation.
Mesisca interviewed potential victims, including people
identified by Flagship and others whose names appeared on the
checks. He also interviewed former VOG employees and
conducted several undercover phone calls to obtain evidence
from VOG. With this evidence, he applied for and obtained
search warrants for VOG’s headquarters and the Lacerdas’
personal residence.
The evidence, collected from Mesisca’s search,
included purchase agreements, settlement and cancelation

10

Case: 16-2220

Document: 167

Page: 11

Date Filed: 05/05/2020

contracts, emails and complaints from concerned victims,
customer lead sheets, client information forms, and phone
scripts used at VOG. His testimony provided the foundation
for admitting this evidence as exhibits, and then, as with the
bank records, he explained why the evidence was significant to
his investigation.
Mesisca testified that both Lacerda and his wife had
control of VOG’s account. While the account received many
deposits, no money from the account was used to pay off any
timeshare debts. Instead, the Lacerdas used the money to buy
a dog, a swimming pool, and similar things.
Mesisca learned that some former Wyndham customers
may have been victimized by VOG. One victim had received a
phone call from “Robert Klein” representing VOG. Mesisca
subpoenaed the caller’s phone records and discovered that the
phone number was used by VOG, after incoming calls were
forwarded to a local number in New Jersey. He also learned
that “Robert Klein” was an alias for Lacerda.
At the trial, Mesisca discussed the evidence he obtained
through execution of the search warrant at VOG’s
headquarters, laying the foundation for the admission of
exhibits and explaining their importance to the investigation.
He further explained the sales pitches used by VOG, based on
the notes, emails, and phone scripts found at the office during
the search, and illustrated many of the misrepresentations VOG
representatives had made to victims.
Mesisca obtained press releases issued by VOG and
visited its website to collect more information and evidence.
His testimony provided the foundation to enter this evidence as
exhibits at trial. He also explained that, during his
investigation, he met with informants who shared with him a
video recording of a VOG employee training session. His
testimony provided the foundation for entering this video
recording into evidence. He was able to show, from his
investigation, that Manzoni was working at and receiving
income from VOG in October 2010, and Resnick was
receiving income from VOG while collecting unemployment
benefits in September and October 2010.

11

Case: 16-2220

Document: 167

Page: 12

Date Filed: 05/05/2020

During the execution of the search warrant, Mesisca
interviewed Lacerda. Lacerda advised him that he was the
president and CEO of VOG and, contrary to the company’s
sales pitches, that VOG was not associated with any bank, that
it had no ability to pay off anyone’s mortgage or loan, and that
it did not settle anyone’s debts. Lacerda acknowledged that his
sales force used aliases but claimed that was only to induce
outsiders to believe VOG was larger than it really was. Lacerda
admitted that he used the VOG business account for personal
expenses but claimed that he took only about $30,000.
Mesisca’s investigation, showed that number was closer to
$600,000. Lacerda admitted receiving unemployment benefits
but claimed he had repaid those. Finally, Mesisca noted that, at
the end of the interview, Lacerda refused to sign a statement
that he had been truthful during the interview.
Mesisca also interviewed Resnick who recounted that
he worked as VOG’s premier closer: when other employees
failed to complete a deal with a client, the information was sent
to him to close it. A couple of weeks later, Mesisca again met
with Resnick. During that second interview, Resnick
acknowledged that he, too, had been a former Wyndham
employee and that he took internal lead sheets from Wyndham
and used them at VOG to call potential clients. Resnick
admitted that he had collected unemployment benefits while
working at VOG but claimed that he planned to repay the
money.
Mesisca interviewed Manzoni on three occasions. She
admitted that VOG representatives told potential clients that
the representatives worked with banks—it was part of the
script they followed. During her August interview, she told
Mesisca that, disillusioned with VOG, she had quit.
We have set out Mesisca’s direct examination testimony
to show that it was proper overview. It was limited to an
account of his investigation, his personal observations, and his
beliefs of what the evidence showed based on what he saw and
heard and did. Also important is the testimony Mesisca did not
offer. Because he was not directly involved in the execution of
the warrant at the Lacerdas’ home, Mesisca did not tell the jury
about that portion of the investigation. He only provided the
foundation to admit evidence found at the Lacerdas’ house that

12

Case: 16-2220

Document: 167

Page: 13

Date Filed: 05/05/2020

he had personally reviewed, and then related that evidence to
bank records he had previously obtained While he noted that
each of the defendants had been interviewed when the search
warrant was executed at VOG, he did not discuss the
statements made that day by Ashley Lacerda, DiVenti, or
Manzoni because he did not personally conduct those
interviews.
C.

Special Agent Mesisca’s Overview Testimony
Was Admissible

On appeal, Lacerda, Resnick, and Manzoni each
highlight the length of Special Agent Mesisca’s testimony, as
though that alone proves he gave impermissible overview
testimony. Not so. This was a complex case in which, as lead
investigator, he was directly involved in almost every step of
the investigation.
Lacerda and Manzoni each further assert that Mesisca
offered conclusory statements of their guilt by referring to
persons who the government alleged were defrauded by VOG
as “victims.” The appellants have cited no authority, and we
are aware of none, prohibiting government witnesses from
referring to persons as “victims” who are alleged to be victims
in the indictment. That there had been victims was not even
disputed—it was highlighted by Lacerda and Resnick during
their opening statements. Assertions to the contrary
notwithstanding, whether there were victims was not at issue
in this case. The issue was whether these defendants had
defrauded the victims, or otherwise knowingly participated in
the fraud occurring at VOG. The jury understood this and,
finding insufficient evidence of guilt for one of the defendants,
acquitted DiVenti.
Lacerda also asserts that Mesisca gave conclusory
testimony, without foundation. For example, he testified that
“Robert Klein” was Lacerda’s alias. This issue was not
preserved by any objection, see Fed. R. Crim. Pro. 51(b), and,
having not attempted to show plain error, Lacerda is not
entitled to review of this unpreserved issue on appeal. See

13

Case: 16-2220

Document: 167

Page: 14

Date Filed: 05/05/2020

United States v. Olano, 507 U.S. 725, 732 (1993).3 But even
had this issue been preserved, there was in fact foundation for
Mesisca’s testimony: he testified that, during their execution of
the search warrant at VOG headquarters, agents had found a
list of names with aliases at the receptionist’s desk. “Robert
Klein” was listed as the alias for Lacerda, and Mesisca did not
find evidence that anyone else ever used that alias.
We have reviewed the appellants’ other allegations of
improper overview, e.g., the reason for having duplicate copies
of client information sheets, whether victims were told about
non-judicial foreclosure process, whether Lacerda “freaked
out” when he saw one of VOG’s representatives using the
“bank pitch” in an email to a victim, etc. After careful review
and consideration of the permissible limits of overview as set
out above, we find no abuse of discretion in the admission of
Mesisca’s testimony.
In sum, the government may call as its first witness an
officer who is familiar with, or was personally involved in, the
criminal investigation, and that officer may testify about all
matters within his personal knowledge from the investigation.
Special Agent Mesisca’s testimony was largely confined to
telling the story of his investigation: how it began, the steps he
took, the evidence he uncovered, and the interviews with
defendants he conducted. The District Court did not abuse its
discretion by allowing this testimony.
III.

Objections Raised by Lacerda

Lacerda raises several additional issues on appeal. He
asserts that the District Court (1) abused its discretion when it
disqualified his counsel, Marc Neff, based on Neffs conflict
of interest; (2) abused its discretion when it denied replacement
counsel’s motion for a continuance; (3) abused its discretion
by excluding from evidence an email sent by Lacerda to
VOG’s former CFO, Jeff Sawyer; (4) abused its sentencing
3 Lacerda takes issue with additional portions of
Mesisca’s testimony unpreserved by timely objection but has
not attempted to show plain error entitling him to review of
these unpreserved issues. So we decline to address these
unpreserved issues in this opinion.
14

Case: 16-2220

Document: 167

Page: 15

Date Filed: 05/05/2020

discretion; and (5) erred by ordering the forfeiture of all VOG’s
gross proceeds. We will address each issue in turn.
A.

Attorney Neff Was Properly Disqualified

Lacerda argues that the District Court arbitrarily
disqualified his counsel of choice or at least abused its
discretion by disqualifying Neff. When a defendant challenges
the District Court’s decision to disqualify his counsel of
choice, we apply a bifurcated standard of review: first, we
exercise plenary review when determining whether the District
Court’s decision was arbitrary, and then, if not arbitrary, we
review the decision for an abuse of discretion. United States v.
Stewart, 185 F.3d 112, 120 (3d Cir. 1999). Here, we find that
the District Court’s decision was neither arbitrary nor an abuse
of discretion, so we will affirm.
The Sixth Amendment to the United States Constitution
guarantees the right of counsel to every criminal defendant.
That guarantee has generally been understood to encompass a
right to the counsel of choice. Powell v. Alabama, 287 U.S. 45,
53 (1932). But the right to counsel of choice is not absolute.
Wheat v. United States, 486 U.S. 153 (1988). “The essential
aim of the [Sixth] Amendment is to guarantee an effective
advocate for each criminal defendant rather than to ensure that
a defendant will inexorably be represented by the lawyer whom
he prefers.” Id. at 159 (internal citations omitted). Before
disqualifying a defendant’s counsel of choice, the trial court
must balance that defendant’s right to his counsel of choice
against the fair and proper administration of justice. United
States v. Voigt, 89 F.3d 1050, 1074 (3d Cir. 1996). When
“considerations of judicial administration supervene,” such as
when an attorney has a serious potential conflict of interest, the
presumption in favor of counsel of choice is rebutted and the
right must give way. Id. at 1074-75 (citing Fuller v. Diesslin,
868 F.2d 604, 607 n.3 (3d Cir. 1989)).
Here, the District Court weighed Lacerda’s right to
counsel of choice against Neffs serious actual and potential
conflicts of interest and, ultimately, determined those conflicts
could neither be waived nor cured by anything short of
disqualification. That conclusion was neither arbitrary nor an
abuse of discretion.

15

Case: 16-2220

Document: 167

Page: 16

Date Filed: 05/05/2020

After the FBI raid on VOG in November 2010, Lacerda
retained Neff as his counsel. The following month, Neff met
with VOG employees to ease any concerns they had, assuring
them that (1) only the Lacerdas were under investigation by the
FBI and (2) the post-raid revised phone scripts were lawful.
VOG continued operations using the phone scripts whose
legality had been vouched for by Neff. Contrary to Neffs
representations, 18 VOG employees, including the Lacerdas,
were eventually indicted in this criminal case based in part on
their use of the phone scripts. In proffers to the government,
several of those defendants told of the December meeting with
Neff.
In United States v. Merlino, 349 F.3d 144, 151 (3d Cir.
2003), we recognized that “[a]n attorney who faces criminal or
disciplinary charges for his or her actions in a case will not be
able to pursue the client’s interests free from concern for his or
her own.” We also recognized the potential conflicts that arise
when counsel realistically could be called as a witness, as “it is
often impermissible for an attorney to be both an advocate and
a witness.” Id. at 152. And we noted “that disqualification may
also be appropriate where it is based solely on a lawyer’s
personal knowledge of events likely to be presented at trial,
even if the lawyer is unlikely to be called as a witness.” Id.
(citing United States v. Locascio, 6 F.3d 924, 933 (2d Cir.
1993)). Each consideration applies here and was central to the
District Court’s thorough and well-reasoned decision
disqualifying Neff.
B.

The District Court Did Not Abuse Its
Discretion in Managing the Trial Calendar

After Neff was disqualified, Lacerda’s new counsel,
Mark Cedrone, requested a lengthy continuance to prepare for
trial. The District Court denied this request. Lacerda now
challenges that denial on appeal. “We review the trial court’s
refusal to grant a continuance for an abuse of discretion.”
United States v. Olfano, 503 F.3d 240, 245 (3d Cir. 2007).
Finding no abuse of the District Court’s discretion, we will
affirm.
“When presented with a motion for continuance, a court
should consider the following factors: the efficient

16

Case: 16-2220

Document: 167

Page: 17

Date Filed: 05/05/2020

administration of criminal justice, the accused’s rights, and the
rights of other defendants whose trials may be delayed as a
result of the continuance.” Olfano, 503 F.3d at 246. The
District Court considered these factors and, given the time
Cedrone had had to prepare Lacerda’s defense, denied the
motion based on the government’s right to a speedy trial,
efforts to streamline the case, the District Court’s calendar, and
the need to “protect the rights of the parties in other cases.”
App. 670:23-671:9.
Lacerda now argues that the District Court abused its
discretion and prejudiced his defense because, he claims,
Cedrone had only four months to prepare for trial. But that is
inaccurate. Cedrone entered his appearance on Lacerda’s
behalf in November 2012—about eight months before jury
selection began in July 2013—and Cedrone told the District
Court in January 2013 that the scope of his representation was
general and not limited to the disqualification motion. The
District Court did not abuse its discretion.
C.
Lacerda’s 2010 Email to Sawyer Was
Properly Excluded as Hearsay
In its case-in-chief, the government presented evidence
showing that Lacerda sometimes used the alias “Robert Klein”
when contacting VOG customers. During the presentation of
his defense, Lacerda testified that he was not the only person
at VOG using that alias. On direct examination, he testified that
he only began using the Robert Klein alias to respond to
customer complaints that otherwise weren’t being addressed
by other employees who would not admit having used the
moniker. He further claimed that he did not use the alias before
2010. The government used that assertion to impeach Lacerda,
confronting him with a check made out to “Robert Klein” in
2009, which he had deposited into his account. On redirect,
Lacerda tried to enter a 2010 email he wrote to VOG’s former
CFO, Jeff Sawyer, asking Sawyer to investigate who else was
using the Robert Klein alias. But the District Court excluded
the email as hearsay.
Lacerda now challenges the District Court’s ruling on
appeal. We review this evidentiary ruling for an abuse of
discretion. United States v. Frazier, 469 F.3d 85, 87 (3d Cir.

17

Case: 16-2220

Document: 167

Page: 18

Date Filed: 05/05/2020

2006). Finding no abuse of the District Court’s discretion, we
will affirm.
At the time of Lacerda’s trial, a witness’s prior
consistent statement was admissible as non-hearsay only when
the witness testified and was subject to cross-examination, and
the out-of-court statement was offered to rebut a charge of
recent fabrication or recent improper motive. See Fed. R. Evid.
801(d)(1)(B) (2011).4 The Supreme Court had explained that
the purpose of the exception was to rebut a charge of recent
fabrication. Tome v. United States, 513 U.S. 150, 157-58
(1995). “Prior consistent statements [could] not be admitted to
counter all forms of impeachment or to bolster the witness
merely because she has been discredited.” Id. at 157.
In this case, the government did not accuse Lacerda of
recently fabricating the claim that he began using the Robert
Klein alias in 2010. Rather, it employed impeachment by
contradiction: of course, Lacerda was using the Robert Klein
alias before 2010; he profited from using the alias in 2009.
Thus, under the former rules of evidence, Lacerda’s email to
Sawyer was hearsay, and the District Court properly excluded
it.

D.

Lacerda’s Sentence Was Procedurally Sound
and Substantively Reasonable

The District Court sentenced Lacerda to 324 months’
imprisonment for his leading role in VOG’s fraudulent
enterprise. On appeal, Lacerda challenges his sentence as
procedurally unsound and substantively unreasonable. Our
standard of review on sentencing challenges is bifurcated. We
“must first ensure that the district court committed no
significant procedural error .... Assuming that the district
court’s sentencing decision is procedurally sound, the appellate
court should then consider the substantive reasonableness of
the sentence imposed under an abuse-of-discretion standard.”
4 Though the Rule was broadly expanded in 2014 to
allow for the use of prior consistent statements to rehabilitate
the witness against other forms of impeachment, see Fed. R.
Evid. 801 (d)( 1 )(B)(ii) (2014), the former rule, with its
limitation, applied in Lacerda’s case.
18

Case: 16-2220

Document: 167

Page: 19

Date Filed: 05/05/2020

Gall v. United States, 552 U.S. 38, 51 (2007). Applying these
standards, we will affirm the District Court’s sentence.
1. The District Court’s sentence was procedurally
sound
Lacerda argues that the District Court imposed a
procedurally unreasonable sentence because, he alleges, it was
based on a miscalculation of the number of victims of the VOG
scheme and the total financial loss suffered by those victims.
The government bears the initial burden of proving loss by a
preponderance of the evidence. United States v. Ali, 508 F.3d
136, 145 (3d Cir. 2007). The district court must then calculate
the amount of loss associated with the crime of conviction and
any relevant conduct that was “part of the same course of
conduct or common scheme or plan.” United States v. Siddons,
660 F.3d 699, 704 (3d Cir. 2011) (quotation omitted). While
this does not have to be an exact figure, it must be a reasonable
estimate. Ali, 508 F.3d at 145.
Lacerda first asserts that only those victims who
testified during trial or whose victimization underlay a specific
count of the indictment should have been counted as victims,
claiming that including any other victims in the presentence
investigative report (“PSR”) was based on “rank hearsay.”
Appellant Lacerda’s Br. 62-64. Of course, a district court may
rely on hearsay statements during sentencing, if “they bear
some minimal indicium of reliability beyond mere allegation.”
United States v. Smith, 751 F.3d 107, 116 (3d Cir. 2014)
(internal quotations and citation omitted). Victim statements
are reliable when they “involve [ ] matters within the
knowledge of each declarant and were made in the course of
interviews by one or more law enforcement officials.” Id.
In this case, for each victim identified in the PSR, the
government submitted the following:
(1) a declaration of victim losses, completed by
the victims, executed under penalty of
perjury, and submitted to the Probation
Office;
(2) an FD-302 summarizing an officer’s interview with
the victim; and
19

Case: 16-2220

Document: 167

Page: 20

Date Filed: 05/05/2020

(3) a canceled check verifying the amount the victim
paid to YOG.
That is more than mere allegation and enough under Smith to
show reliability. The District Court’s calculation of victims
was therefore reasonable.
Lacerda next argues that the District Court’s calculation
of loss was erroneous because it failed to offset the victims’
losses with credits for new timeshares and cancellation of prior
debts. This argument is unavailing. The supposed cancellation
of debt was one of the bases for the fraud charges. Cancellation
was not achieved through VOG’s efforts, but through the
victims’ credit-destroying defaults with the timeshare
companies after those victims stopped paying their bills—
relying on VOG’s misrepresentations that their timeshare debts
had been paid off. And the VOG victims were trying to get rid
of their timeshares, not acquire new timeshares. Neither of
these were “services” rendered by VOG; they were part of the
fraudulent scheme. Perpetrators of fraudulent schemes are not
entitled to credits against loss for payments made to perpetuate
their schemes. See United States v. Hartstein, 500 F.3d 790,
800 (8th Cir. 2007) (“[W]hen a defendant’s only subjective
intent regarding repayments relates to this illegal purpose of
perpetuating the scheme, a sentencing court may refuse to
credit repayments against sums received from the victims.”);
United States v. Whatley, 133 F.3d 601, 606 (8th Cir. 1998)
(“[W]e are not inclined to allow the defendants a profit for
defrauding people or a credit for money spent perpetuating a
fraud.”); United States v. Blitz, 151 F.3d 1002, 1012 (9th Cir.
1998) (same).
2. The District Court’s sentence was substantively
reasonable
We will not reverse a sentence as substantively
unreasonable “unless no reasonable sentencing court would
have imposed the same sentence on that particular defendant
for the reasons the district court provided.” United States v.
Tomko, 562 F.3d 558, 568 (3d Cir. 2009) (en banc). Lacerda’s
Guidelines range was calculated between 324 and 405 months.
As demonstrated above, Lacerda has shown no error in that
calculation. The District Court’s sentence of 324 months rests

20

Case: 16-2220

Document: 167

Page: 21

Date Filed: 05/05/2020

at the very bottom of the range. When “the sentence is within
the Guidelines range, the appellate court may, but is not
required to, apply a presumption of reasonableness.” Gall, 552
U.S. at 51. We will apply the presumption here.
Lacerda presents a table of cases showing a range of
sentences for other fraud cases and argues that his sentence,
though at the bottom of his Guidelines range, is still “23 times
greater than the median sentence for his type of offense.”
Appellant Lacerda’s Br. 67-71. When a defendant seeks to
argue disparate sentencing, he bears the “burden of
demonstrating similarity by showing that other defendants’
circumstances exactly paralleled his, and a court should not
consider sentences imposed on defendants in other cases in the
absence of such a showing by a party.” United States v.
Iglesias, 535 F.3d 150, 161 n.7 (3d Cir. 2008) (citing United
States v. Vargas, All F.3d 94, 100 (3d Cir. 2007)) (internal
brackets and quotations omitted). Lacerda has failed to
demonstrate that any of the other defendants’ circumstances
exactly paralleled his. So, “[according great deference” to the
District Court—as the law requires, United States v. Lessner,
498 F.3d 185, 204 (3d Cir. 2007)—we hold that Lacerda has
failed to overcome the presumption that his sentence was
reasonable.
E.
Forfeiture of VOG’s Proceeds Was Not
Clearly Erroneous
After finding that VOG was a wholly fraudulent
scheme, the District Court ordered all its gross proceeds
forfeited under 18 U.S.C. §§ 981(a)(1)(C) & 982(a)(8) and
28 U.S.C. § 2461(c). Lacerda raises two challenges to the
District Court’s forfeiture order on appeal. First, he asserts that
he lacked sufficient notice that the government would seek
forfeiture upon his conviction because the government cited
the wrong criminal forfeiture statutes in its superseding
indictment. Second, he asserts that the District Court’s finding
that all VOG’s revenues were either directly or indirectly
attributable to VOG’s fraud, and so subject to forfeiture, was
clearly erroneous. Because forfeiture orders involve mixed
questions of law and fact, our standard of review here is
bifurcated. We review the District Court’s legal conclusions de
novo and its findings of facts for clear error. See United States

21

Case: 16-2220

Document: 167

Page: 22

Date Filed: 05/05/2020

v. Gordon, 710 F.3d 1124, 1165 (10th Cir. 2013). Applying
this standard, we find no error by the District Court, and we
will affirm.
1. Lacerda had notice that, upon conviction, the
government would seek forfeiture
In its superseding indictment, the government gave
notice that, upon conviction, it would seek forfeiture of “any
property constituting or derived from proceeds obtained
directly or indirectly as a result of such offenses” under 18
U.S.C. §§ 981(a)(1)(D) & 982(a)(2)(A) and 28 U.S.C.
§ 2461(c). App. 287. Lacerda notes, and the government
concedes, that the cited criminal statutes are not the correct
statutes for forfeiture of proceeds from mail and wire fraud
involving telemarketing. The correct statute is 18 U.S.C.
§ 982(a)(8), the statute under which the District Court ordered
forfeiture. Lacerda first argues that the forfeiture order cannot
be based on the civil forfeiture statute because, under our
precedent in United States v. Vampire Nation, 451 F.3d 189,
199 (3d Cir. 2006), forfeiture orders can be based on 28 U.S.C.
§ 2461(c) only when “there is no specific statutory provision
that permits criminal forfeiture.” Lacerda further argues that,
by citing incorrect forfeiture statutes for his crimes, the
government failed to provide the notice required by the Federal
Rules of Criminal Procedure. Lacerda is mistaken on both
grounds.
First, Lacerda’s reliance on Vampire Nation is
misguided. Our Vampire Nation decision was based on the
language of the prior version of 28 U.S.C. § 2461(c).5 Giving
5

The applicable statute read:
If a forfeiture of property is authorized in
connection with a violation of an Act of
Congress, and any person is charged in an
indictment or information with such violation
but no specific statutory provision is made for
criminal forfeiture upon conviction, the
government may include the forfeiture in the
indictment or information in accordance with the
Federal Rules of Criminal Procedure, and upon
22

Case: 16-2220

Document: 167

Page: 23

Date Filed: 05/05/2020

the words of that statute their plain meaning, we concluded that
“criminal forfeiture is not permitted unless (1) a substantive
provision exists for civil forfeiture of the criminal proceeds at
issue; and (2) there is no specific statutory provision that
permits criminal forfeiture of such proceeds.” Vampire Nation,
451 F.3d at 199. In 2006, Congress amended the statute and
eliminated the second requirement.6 The amendment to
28 U.S.C. § 2461(c) effectively abrogates the portion of
Vampire Nation upon which Lacerda now relies. Under the
current version of the statute, the District Court correctly

conviction, the court shall order the forfeiture of
the property in accordance with the procedures
set forth in section 413 of the Controlled
Substances Act ( 21 U.S.C. 853), other than
subsection (d) of that section.
28 U.S.C. § 2461(c) (2000) (emphasis added).
6 The statute now reads:
If a person is charged in a criminal case with a
violation of an Act of Congress for which the
civil or criminal forfeiture of property is
authorized, the government may include notice
of the forfeiture in the indictment or information
pursuant to the Federal Rules of Criminal
Procedure. If the defendant is convicted of the
offense giving rise to the forfeiture, the court
shall order the forfeiture of the property as part
of the sentence in the criminal case pursuant to
to [sic] the Federal Rules of Criminal Procedure
and section 3554 of title 18, United States Code.
The procedures in section 413 of the Controlled
Substances Act (21 U.S.C. 853) apply to all
stages of a criminal forfeiture proceeding, except
that subsection (d) of such section applies only
in cases in which the defendant is convicted of a
violation of such Act.
28 U.S.C. § 2461(c) (2006).
23

Case: 16-2220

Document: 167

Page: 24

Date Filed: 05/05/2020

ordered restitution, and Lacerda had notice under the civil
statute.
Second, the government provided Lacerda with
sufficient notice under the criminal rules. Federal Rule of
Criminal Procedure 32.2 sets forth the notice requirement that
must be met before forfeiture can be ordered by a district court.
It states:
A court must not enter a judgment of forfeiture
in a criminal proceeding unless the indictment or
information contains notice to the defendant that
the government will seek the forfeiture of
property as part of any sentence in accordance
with the applicable statute.
Fed. R. Crim. P. 32.2(a). This rule does not require the level of
specificity demanded by Lacerda. Rather, as we have held, “[a]
conclusory forfeiture allegation in the indictment that
recognizably tracks the language of the applicable criminal
forfeiture statute” is sufficient under the rule. United States v.
Sarbello, 985 F.2d 716, 719 (3d Cir. 1993). We recognize that
Sarbello specifically addressed then-Rule 7(c)(2), which was
removed with the 2009 amendments. But that rule was
removed only because it had become obsolete: “In 2000 the
same language was repeated in subdivision (a) of Rule 32.2,
which was intended to consolidate the rules dealing with
forfeiture.” See Fed. R. Crim. P. 7 note (2009 Amendment).
We now hold, consistent with Sarbello, that general notice of
forfeiture is sufficient under Rule 32.2. Thus, Lacerda had
sufficient notice that the government would seek forfeiture
upon his conviction.
2. Based on its finding that VOG used its revenues to
promote and facilitate its fraud, the District Court
correctly ordered those revenues forfeited
Lacerda next contends that the District Court erred by
subjecting all VOG’s proceeds to forfeiture rather than limiting
the order to the losses directly claimed by VOG’s victims. But
the relevant statute is not so narrow. Rather, addressing the
crimes committed by Lacerda at VOG, 18 U.S.C. § 982
requires the court to

24

Case: 16-2220

Document: 167

Page: 25

Date Filed: 05/05/2020

order that the defendant forfeit to the United
States any real or personal property—
(A) used or intended to be used to commit, to
facilitate, or to promote the commission
of such offense; and
(B) constituting, derived from, or traceable to
the gross proceeds that the defendant
obtained directly or indirectly as a result
of the offense.
18 U.S.C. § 982(a)(8). The District Court found that VOG was
a fraudulent enterprise from beginning to end, and that all its
gross proceeds were used to further its fraud. Based on those
findings, the District Court correctly ordered the forfeiture of
all VOG’s proceeds.
Lacerda does not appear to challenge the District
Court’s findings on appeal. Instead, he argues that what it
means for property to be “indirectly” derived, traceable, or
obtained from an offense is ambiguous, so the rule of lenity
should govern our interpretation of the forfeiture statute. We
reject this argument. First, it is irrelevant. The District Court’s
order focused on the fact that VOG had used all its revenues to
promote and facilitate its fraud, not on whether those revenues
were direct or indirect. Second, “[t]he rule of lenity ... is
inapplicable if there is only a mere suggestion of ambiguity
because most statutes are ambiguous to some degree.” United
States v. Cheeseman, 600 F.3d 270, 276 (3d Cir. 2010)
(internal quotation omitted). Lacerda has failed to show that
the forfeiture statute is ambiguous—much less sufficiently
ambiguous—to warrant application of the rule of lenity.
Recently, the Supreme Court of the United States
explained that the purpose of forfeiture statutes is to separate
the criminal from his ill-gotten gains, to return, in full, the
property of defrauded victims, and to lessen the economic
power of criminal enterprises. Honeycutt v. United States, 137
S. Ct. 1626, 1631 (2017) (citing Caplin & Drysdale, Ctd. v.
United States, 491 U.S. 617, 629-30 (1989)). The District
Court’s forfeiture order here meets those purposes. The District
Court found that VOG was a thoroughly corrupt criminal

25

Case: 16-2220

Document: 167

Page: 26

Date Filed: 05/05/2020

conspiracy from beginning to end, and that its revenue was
used to promote and facilitate its crimes. That finding is
supported by substantial evidence and does not appear to be
challenged by Lacerda on appeal. The District Court correctly
ordered the forfeiture of all of YOG’s revenues.
IV.

Objections Raised by Resnick

Like Lacerda, Resnick also raises several additional
issues on appeal. He claims that (1) the government suppressed
material evidence; (2) the District Court miscalculated the
number of his victims and the loss amount for those victims,
and so erred at sentencing; (3) his due process rights were
violated when his sentencing hearing was delayed; and (4) the
District Court’s restitution order was procedurally unsound and
substantively unreasonable. We will address each argument in
turn.
A.
Violation

The Government Did Not Commit a Brady

Resnick asserts that the government violated its
obligations under Brady v. Maryland, 373 U.S. 83 (1963), by
withholding evidence which he might have used to impeach
Special Agent Mesisca. Specifically, Resnick claims that the
government withheld the documents that were the basis of a
victim’s, Dorothy Gerlach’s, FD-3027 and withheld Gerlach’s
later-produced “Declaration of Victim’s Losses.” Resnick
preserved this argument by raising it to the District Court in a
motion for a new trial based on newly discovered evidence.
The District Court correctly denied that motion.
Under Brady, the government has a duty to disclose
“evidence that is favorable to the defense and material to the
defendant’s guilt or punishment.” Smith v. Cain, 565 U.S. 73,
75 (2012). Thus, there are three prerequisites to a Brady
violation: (1) the government must have failed to disclose
evidence; (2) that evidence must have been favorable to the
defendant; and (3) that evidence must have been material.

7 The FD-302, commonly referred to simply as a “302”,
is the form commonly used by FBI agents to summarize
witnesses’ statements and interviews.
26

Case: 16-2220

Document: 167

Page: 27

Date Filed: 05/05/2020

Evidence is “material” only if there is a reasonable probability
that its disclosure would have led to a different outcome at trial,
and so undermines confidence in the verdict. Turner v. United
States, 137 S. Ct. 1885, 1893 (2017). The evidence Resnick
claims was withheld fails to satisfy each of the three
prerequisites.
Contrary to Resnick’s assertions, the government did
not withhold the evidence. The documents underlying
Gerlach’s 302, labeled as “DG-3”, were disclosed before trial.
The Declaration of Victim’s Losses, “DG-2”, was received by
the probation office in May 2013, but not forwarded to the
prosecutor until late in 2014. The prosecutor disclosed the
declaration with other documents in January 2015.
Resnick is correct that the failure to disclose
information known only to police investigators can still
implicate the prosecution, even when the prosecutor was
unaware of the information. Youngblood v. West Virginia, 547
U.S. 867, 869-70 (2006). But probation officers in the federal
system are not police investigators; they are “the court’s eyes
and ears and provide information and recommendations to the
court.” United States v. Amatel, 346 F.3d 278, 279 (2d Cir.
2003). We will not impute to the prosecution the Probation
Office’s failure in 2013 to disclose Gerlach’s “Declaration of
Losses” to Resnick.
But even if we did impute to the prosecution the
Probation Office’s failure to disclose, it still would not
constitute a Brady violation. Far from being material evidence
that could have undermined Resnick’s conviction, this
evidence reinforces the jury’s verdict. Resnick admitted that
“he pitched a bank settlement deal to Ms. Gerlach.” App.
7737:19-21. There were two parts to the bank settlement pitch:
VOG promised to help the victims pay off their debt and keep
their timeshare property, and then, in a bait and switch, sold
them a second timeshare through VOG. Gerlach’s declaration,
which expresses confusion over not receiving points she was
promised, highlights that bait and switch. Thus, the declaration
was not exculpatory; it was inculpatory.
We conclude that the government did not violate its
obligations under Brady.

27

Case: 16-2220

B.

Document: 167

Page: 28

Date Filed: 05/05/2020

The Timing of Resnick’s Sentencing Did Not
Violate His Sixth Amendment or Due
Process Rights

Resnick next claims that his speedy sentencing rights
were violated when his sentence was not imposed for more
than two-and-a-half years following his conviction. We once
recognized a right to a speedy sentencing hearing under both
the Sixth Amendment and the Due Process Clause. See
Burckett v. Cunningham, 826 F.2d 1208, 1219-21 (3d Cir.
1987). But the Supreme Court of the United States has since
clarified that the Sixth Amendment guarantees a defendant the
right to a speedy trial, not a speedy sentencing. Betterman v.
Montana, 136 S. Ct. 1609, 1613 (2016). “That does not mean,
however, that defendants lack any protection against undue
delay at [sentencing].” Id. at 1617. Federal Rule of Criminal
Procedure 32(b)(1) requires courts to “impose sentence
without unnecessary delay.” Id. And, the Supreme Court noted,
the convicted defendant maintains his due process rights. Id.
Thus, while Betterman overruled our speedy sentencing
precedent under the Sixth Amendment, our precedent under the
Due Process Clause survives. Under that precedent, we apply
the same framework adopted by the Supreme Court in Barker
v. Wingo, considering: (l)the length of the delay; (2) the
reasons for the delay; (3) the defendant’s assertion of his right;
and (4) any prejudice suffered by the defendant. 407 U.S. 514,
530 (1972). Consideration of these factors leads us to the
conclusion that Resnick suffered no deprivation of his due
process right to a speedy sentencing.
First, the length of the delay between conviction and
sentencing—more
than
two-and-a-half
years—was
substantial. This factor favors Resnick.
But second, as the District Court found, three things
contributed to the delay in getting to sentencing. (1) This was
a very complex fraud scheme involving 18 separate
defendants, and the deliberation necessary to address the
scheme and its victims required time. (2) Resnick sought
several continuances of his sentencing. The government, on the
other hand, never requested a continuance. (3) The District
Court delayed sentencing to research Resnick’s claims that

28

Case: 16-2220

Document: 167

Page: 29

Date Filed: 05/05/2020

some of the purported victims were not really victims. So any
unnecessary delays, if there were unnecessary delays, are
mainly attributable to Resnick. None are attributable to the
government. This factor weighs heavily against Resnick.
Third, Resnick asserted his right to a speedy sentencing
in a motion filed on March 3,2016. Ironically, that motion also
sought leave to serve a Rule 17(c) subpoena to obtain
additional documents, which would have further delayed
sentencing. (Id.) Resnick’s sentencing hearing took place on
April 22, 2016,' seven weeks after he filed his request. If this
factor favors Resnick, it does so with little weight.
Fourth and finally, Resnick asserts that the delays to his
sentencing prejudiced him because the government was able to
identify additional victims and adduce sufficient evidence to
prove their losses by a preponderance of the evidence. We do
not think this argument is well taken. Allowing the government
time to identify additional victims did not affect his Sentencing
Guidelines range. Resnick’s victim and loss total—whether
calculated in 2014 under the initial PSR at 124 victims with
$1.2 million in losses, or the government’s initial filing of 192
victims with $2.1 million in losses, or in 2015 under the
government’s revised filing of 253 victims with $2.7 million in
losses—always yields a 16-level enhancement. Compare
U.S.S.G. §2B1.1(b)(1) (2014), with U.S.S.G. § 2B1.1(b)(1)
(2015). Thus, Resnick’s Guidelines range was unaffected, and
he has failed to show prejudice. This factor also weighs heavily
against Resnick.
Taking the four factors together, we conclude that
Resnick has failed to show that his due process right to a
speedy sentence was violated.
C.

The District Court Correctly Applied the
Sentencing Guidelines In Fashioning
Resnick’s Sentence

Resnick next challenges several of the District Court’s
findings at sentencing. We “review factual findings relevant to
the Guidelines for clear error and ... exercise plenary review
over a district court’s interpretation of the Guidelines.” United
States v. Grier, 475 F.3d 556, 570 (3d Cir. 2007).

29

Case: 16-2220

Document: 167

Page: 30

Date Filed: 05/05/2020

First, Resnick claims that by adopting the government’s
proposed timeline for VOG’s operations the District Court
allowed the government to inflate its victim and loss figures.
He argues that, because the government limited the timeframe
for its evidence at trial, any victims found outside of that
limited timeframe should not count. Of course, because the
VOG-conspirators continued operations during their trial—
through 2014—some victims arose after the government’s
limited timeframe. It was appropriate for those victims to be
included. And we again note that the government’s calculation
of victims’ losses did not affect Resnick’s ultimate Guidelines
range.
The Sentencing Guideline that applies to Resnick’s
fraud is § 2B1.1, covering various forms of theft. Following
the 2015 amendment, a six-level enhancement should be
applied when the crime “resulted in substantial financial
hardship to 25 or more victims.” U.S.S.G. § 2B 1.1(b)(2)(C).
That is the highest-level enhancement for number of victims.
The definition of “substantial financial hardship” includes
“suffering substantial harm to his or her ability to obtain
credit.” See U.S.S.G. application notes § 4(F)(vi). As the credit
ratings of all the victims of VOG were severely damaged by
VOG’s schemes, Resnick began on the wrong side of that
threshold. That the government ultimately identified more than
250 victims was immaterial for the Guidelines calculation.
And, as discussed in section IV(B), whether using the initial
victim and loss estimates in 2014, or the more comprehensive
totals following the 2015 amendment, Resnick’s victims’ loss
total yields the same 16-level enhancement.
Second, Resnick challenges the District Court’s finding
that VOG was a fraudulent enterprise from beginning to end.
Resnick argues that not all VOG’s employees knew that they
were part of a fraudulent scheme, so there must have been some
non-fraudulent work at VOG. This conclusion does not follow
from Resnick’s premise because those employees’ alleged
ignorance is not imputed to Resnick and his co-defendants. A
conviction for mail or wire fraud requires both objective
misrepresentations and the defendant’s subjective knowledge
of the misrepresentations. See 18 U.S.C. §§ 1341, 1343. The
jury found that Resnick knowingly participated in VOG’s

30

Case: 16-2220

Document: 167

Page: 31

Date Filed: 05/05/2020

fraud, so the argument based on others’ alleged knowledge
does not help him.
Resnick also argues that the finding is inconsistent with
the District Court’s willingness to consider his argument that
not all VOG victims were equally victimized. The District
Court noted that VOG had engaged in various types of fraud.
That the Court recognized that some instances of VOG’s fraud
were more flagrant than others does not undermine the District
Court’s overall finding that VOG was a wholly fraudulent
enterprise. Rather, having carefully reviewed this case, we
conclude that the Court’s finding was supported by substantial
evidence and will be affirmed.
Third, like Lacerda, Resnick argues that services like
debt cancellation and the sale of new timeshares should be
credited against the victims’ losses. We addressed this
argument in section 111(D)(1), and our analysis applies equally
to Resnick. Cancellation was achieved only because the
victims defaulted on their loans, not because of some value­
adding intervention from VOG. The defaults impacted the
victims’ credit ratings in significant and negative ways. The
District Court was correct to not credit VOG’s alleged
“services” against the losses suffered by Resnick’s victims.
And like Lacerda, Resnick is not entitled to credit against his
victim’s losses for payments VOG made to perpetuate its
fraudulent schemes. See Hartstein, 500 F.3d at 800; Whatley,
133 F.3d at 606; Blitz, 151 F.3d at 1012.
Fourth and finally, Resnick argues that, under U.S.S.G.
§ 2B1.1, refunded monies by third parties should be credited
against his victim’s losses. The Guidelines provides that the
victim’s loss “shall be reduced by ... [t]he money returned ...
by the defendant or other persons acting jointly with the
defendant, to the victim before the offense was detected.”
U.S.S.G. § 2Bl.l(3)(E)(i) (emphasis added). Resnick argues
that he is entitled to credit for refunds to victims made by
“escrow companies] utilized to procure third party
timeshares” and other “timeshare developers.” Appellant
Resnick’s Br. 71. But there is no evidence that the escrow
agents and timeshare developers were “acting jointly” with
Resnick, or that the refunds were made “before the offense was

31

Case: 16-2220

Document: 167

Page: 32

Date Filed: 05/05/2020

detected.” The District Court correctly denied any credits
against Resnick’s victims’ losses.
D.

Resnick Forfeited His Objection to the
District Court’s Restitution Order

Because of the many complexities of this case,
restitution was delayed until sometime after sentencing. While
Resnick filed a timely notice of appeal from his judgment and
sentence, he never appealed from the later-entered order of
restitution. Resnick now raises various challenges to the
District Court’s award of restitution entered against him under
18 U.S.C. § 3663A. But the government contends that we must
dismiss Resnick’s challenges because of his failure to file a
separate notice of appeal from the restitution order. The
government is correct.
This issue raises a jurisdictional question, over which
we exercise plenary review. Hamilton v. Bromley, 862 F.3d
329, 333 (3d Cir. 2017). Resolution of this question is
controlled by Manrique v. United States, 137 S. Ct. 1266, 1274
(2017), in which the Supreme Court held “that a defendant who
wishes to appeal an order imposing restitution in a deferred
restitution case must file a notice of appeal from that order.”
Deferred restitution cases, the Supreme Court explained,
involve two appealable judgments, not one. Id. at 1273; see
also Dolan v. United States, 560 U.S. 605, 616-18 (2010).
Both the statute and rules governing appeals “contemplate that
the defendant will file the notice of appeal after the district
court has decided the issue sought to be appealed.” Manrique,
137 S. Ct. at 1271 (emphasis original). So notices of appeal
filed before the restitution order cannot be “for review” of the
restitution order and are not filed timely from that order. Id.
The Supreme Court held that filing a timely notice of appeal
from an order of restitution was at least a mandatory claim­
processing rule, id. at 1272 (citing Greenlaw v. United States,
554 U.S. 237,252-53 (2008)), and when the government raises
the failure to timely file the notice, our duty to dismiss the
appeal is also mandatory, id. (citing Eberhart v. United States,
546 U.S. 12, 15, 19 (2005)).
Resnick did not file a timely notice of appeal from the
order of restitution, and the government has raised this failure

32

Case: 16-2220

Document: 167

Page: 33

Date Filed: 05/05/2020

on appeal. Thus, under Manrique, Resnick at least violated a
mandatory claim-processing rule and we have a mandatory
duty to dismiss this issue.
V.

Objections Raised by Manzoni

In addition to Manzoni’s challenge to Special Agent
Mesisca’s overview testimony, she also argues that (1) the
District Court abused its discretion by allowing the prosecution
to impeach a codefendant with an audio recording that
implicated her; (2) the District Court erred when it joined the
charges arising from her participation in the fraudulent
activities at VOG and her charge of alleged unemployment
fraud; and (3) there was insufficient evidence presented to the
jury to sustain her fraud and conspiracy convictions. We will
address each of these issues in turn.
A.

The District Court Did Not Abuse Its
Discretion in Admitting Evidence of a Phone
Call to a Victim

During trial, it came to light that some defendants had
engaged in witness tampering. The government sought to enter
the recording of a phone call between one of the defense
witnesses, Dennis Nadeau, and a victim, David Jasper,
showing an attempt at such tampering. Manzoni objected to
admission of the recording on two grounds. At first, she argued
that it was unduly prejudicial under Federal Rule of Evidence
403 because, though the evidence of tampering was not being
offered against her, she was the subject of the victim’s
complaint. But this was not apparent from the phone call itself;
Manzoni was never actually named by the victim. So she also
argued that the phone call should be excluded as hearsay. She
presents these same arguments on appeal.
1. The District Court did not abuse its discretion
under Rule 403
Manzoni asserts that the District Court abused its
discretion under Rule 403 by allowing the recording of the
phone call into evidence. “We generally review a district
court’s evidentiary findings for abuse of discretion.” United
States v. Bailey, 840 F.3d 99, 117-18 (3d Cir. 2016). Rule 403
allows relevant evidence to be excluded when its probative
33

Case: 16-2220

Document: 167

Page: 34

Date Filed: 05/05/2020

value is substantially outweighed by the potential for unfair
prejudice. Id. at 117. When a district court conducts an on-therecord weighing of probative value against unfair prejudice, its
evidentiary decision is entitled to great deference. Id. “In order
to justify reversal, a district court’s analysis and resulting
conclusion must be arbitrary or irrational.” Id.
In this case, the District Court conducted an on-therecord Rule 403 analysis—both orally and in a later written
order. The District Court found that the phone call’s “probative
value as to the consciousness of guilt” outweighed any
prejudice. App. 5015:3-5. But it also recognized that there
could be some spillover effect for Manzoni, so it acted to
mitigate that unfair prejudice by offering multiple curative
instructions—including one drafted by Manzoni. The District
Court’s analysis and its conclusion were neither arbitrary nor
irrational. We therefore find no abuse of the District Court’s
discretion under Rule 403, and we will uphold the District
Court’s decision to allow the recording into evidence.
2. Because the phone call was offered for a non­
hearsay purpose, it was not hearsay
Manzoni next argues that the phone call was hearsay.
“Whether a statement is hearsay is a legal question subject to
plenary review.” United States v. Price, 458 F.3d 202, 205 (3d
Cir. 2006). Under Federal Rule of Evidence 801(c), “hearsay”
is any statement that a declarant makes outside of court and
that is offered to prove the truth of the matter asserted in the
statement. Statements offered for non-hearsay purposes are not
hearsay. See Price, 458 F.3d at 211. As the advisory
committee’s notes to the rule make clear, statements that are
offered merely to show that they happened are not offered for
a hearsay purpose. See Fed. R. Evid. 801 note (subdiv. (c))
(citing Emich Motors Corp. v. General Motors Corp., 181 F.2d
70 (7th Cir. 1950), rev’d on other grounds 340 U.S. 558
(1951)). The recording of the phone call between Nadeau and
Jasper was not offered to prove the truth of any of Jasper’s
assertions, but to show that Nadeau had in fact contacted some
of the victims. So the phone call was not hearsay, and Manzoni
has failed to show that the District Court abused its discretion
by allowing it into evidence.

34

Case: 16-2220

B.

Document: 167

Page: 35

Date Filed: 05/05/2020

Manzoni Was Not Prejudiced by the Joinder
of Her VOG-Fraud and Employment-Fraud
Charges

In separate counts, Manzoni was charged with fraud and
conspiracy for her participation in the VOG scheme, and with
fraud for allegedly collecting unemployment benefits from the
State of New Jersey while she was employed at VOG. Manzoni
moved to sever the charges under Federal Rule of Criminal
Procedure 8. Although the District Court recognized that the
propriety of joinder here was a close question, it denied her
motion. Manzoni argues that it was error to join her VOG-fraud
and unemployment-fraud charges because they lacked a
sufficient nexus and were not part of the same transaction. The
appeal of a denial of a motion under Rule 8 is a claim of legal
error, which we review de novo. United States v. Jimenez, 513
F.3d 62, 82 (3d Cir. 2008).
Joinder is controlled by Rule 8. Generally, Rule 8(a)
addresses joinder of offenses and Rule 8(b) joinder of
defendants. But Rule 8(a) only applies to prosecutions
involving a single defendant; “in a multi-defendant case such
as this, the tests for joinder of counts and defendants is merged
in Rule 8(b).” United States v. Irizarry, 341 F.3d 273, 287 (3d
Cir. 2003) (internal quotations omitted). “Although the
standards of Rule 8(a) and Rule 8(b) are similar, in that they
both require a transactional nexus between the offenses or
defendants to be joined, Rule 8(a) is more permissive than Rule
8(b) because Rule 8(a) allows joinder on an additional ground,
i.e., when the offenses are of the same or similar character.” Id.
at 287 n.4 (citations and internal quotations omitted); see also
Jimenez, 513 F.3d at 82 (“[JJoinder of defendants under Rule
8(b) is a stricter standard than joinder of counts against a single
defendant under Rule 8(a).”). For joinder of Manzoni’s cases
to have been proper under Rule 8(b), they either would have
had to originate “in the same act or transaction,” or have
otherwise been integral to one another. See United States v.
Riley, 621 F.3d 312, 334 (3d Cir. 2010).
The District Court determined that joinder was proper
because Manzoni’s employment in the VOG scheme was
integral to the unemployment-fraud charge: she was charged
with fraudulently collecting unemployment benefits while she

35

Case: 16-2220

Document: 167

Page: 36

Date Filed: 05/05/2020

was employed by, and receiving compensation from, VOG.
But the opposite is not necessarily true. Rather, Manzoni
suggests, allegations that she illicitly collected unemployment
benefits would not have been integral to her participation in the
VOG scheme, so joinder was improper. But even assuming,
arguendo, that Manzoni is correct, the District Court still did
not commit reversible error.
Under Federal Rule of Criminal Procedure 52(a), we
must disregard “[a]ny error, defect, irregularity, or variance
that does not affect substantial rights ....” We have explained
that “an error involving misjoinder affects substantial rights
and requires reversal only if the misjoinder results in actual
prejudice because it had substantial and injurious effect or
influence in determining the jury’s verdict.” Jimenez, 513 F.3d
at 83 (brackets and internal citations omitted). Here, any
potential misjoinder would have been harmless because the
record shows that the joinder did not influence the jury’s
verdict against Manzoni; after all, she was acquitted of the
allegedly misjoined charge.
Because Manzoni’s employment at VOG was integral
to the unemployment-fraud charges, unfair prejudice in this
case can only flow in one direction. That is, it would have been
proper for the jury to conclude that, because Manzoni was
employed and receiving compensation with the VOG scheme,
she was committing fraud by receiving unemployment benefits
from the State of New Jersey. It would have been improper,
however, for the jury to conclude that, because Manzoni
committed unemployment fraud, she must also have
participated in the VOG fraud. But the jury did not reach that
conclusion; rather, it convicted Manzoni of her role in the VOG
scheme despite acquitting her of unemployment fraud. So
joinder of the fraud counts did not affect the jury’s verdict and
any error in joining the charges was harmless.
Manzoni’s Conviction Was Supported by
Sufficient Evidence
C.

Finally, Manzoni challenges the sufficiency of the
evidence to support her fraud and conspiracy convictions. Our
standard of review on a challenge to the sufficiency of the
evidence is plenary. United States v. Boria, 592 F.3d 476, 480

36

Case: 16-2220

Document: 167

Page: 37

Date Filed: 05/05/2020

(3d Cir. 2010). But that plenary review is greatly tempered by
giving substantial deference to the jury’s finding of guilt. See
Jackson v. Virginia, 443 U.S. 307, 318-19 (1979). Employing
that deference, and applying the applicable legal standards, we
find the evidence was sufficient to support the jury’s guilty
verdict.
The Supreme Court of the United States has explained:
[T]he critical inquiry on review of the
sufficiency of the evidence to support a criminal
conviction must be ... to determine whether the
record evidence could reasonably support a
finding of guilt beyond a reasonable doubt. But
this inquiry does not require a court to ask itself
whether it believes that the evidence at the trial
established guilt beyond a reasonable doubt.
Instead, the relevant question is whether, after
viewing the evidence in the light most favorable
to the prosecution, any rational trier of fact could
have found the essential elements of the crime
beyond a reasonable doubt.
Jackson, 443 U.S. at 318-19 (internal quotations and citations
omitted). In conducting this review, all reasonable inferences
must be drawn in favor of sustaining the verdict. United States
v. Anderskow, 88 F.3d 245, 251 (3d Cir. 1996). Reversal of a
conviction is only appropriate where there is “no evidence,
regardless of how it is weighted, from which the jury could find
guilt beyond a reasonable doubt.” United States v. Mussare,
405 F.3d 161, 166 (3d Cir. 2005).
Manzoni was charged with conspiracy to commit wire
fraud under 18 U.S.C. § 1349 and wire fraud under 18 U.S.C.
§ 1343. To prove wire fraud, the government had to show that
Manzoni had the intent to commit fraud. See 18 U.S.C. § 1343.
So the question here is whether Manzoni’s participation in the
YOG scheme was knowing or intentional.
Manzoni argues that the evidence presented at trial at
most showed that she said things as a VOG representative that
were not true, not that she was a knowing participant in the
fraud. She claims that this case should be controlled by United

37

Case: 16-2220

Document: 167

Page: 38

Date Filed: 05/05/2020

States v. Pearlstein, 576 F.2d 531, 542^43 (3d Cir. 1978), in
which we reversed the fraud convictions of lowly sales
representatives who only read from a sales script, without
knowing that the script contained false statements. In light of
the evidence admitted at trial, we find that Pearlstein does not
apply.
First, Manzoni was no lowly sales representative—she
was one of the managers at VOG. From her position as a
manager, and her long experience in the timeshare industry, a
jury could reasonably infer that she knew that statements in
VOG’s phone scripts were false. Second, even before she was
a manager, while working as one of VOG’s closers, Manzoni
did more than just mechanically read false statements from a
controlled sales script. She showed initiative by inventing fake
payoff amounts for the customers, without approval—much
less direction—from her supervisors, and then creating
urgency by imposing arbitrary deadlines by which these (fake)
offers had to be accepted before they expired. Based on this
evidence, as the District Court correctly found, a reasonable
jury could conclude beyond a reasonable doubt that Manzoni
was “a knowing, even integral part, of [the] fraud scheme.” SA
1151.
VI.

Conclusion

For all of the reasons discussed above, we will affirm
the judgments of conviction and sentences entered against
Lacerda, Resnick, and Manzoni.

38

Case l:12-cr-00303-NLH Document 424 Filed 06/29/15 Page 1 of 15 PagelD: 10549

UNITED STATES DISTRICT COURT
DISTRICT OF NEW JERSEY

UNITED STATES OF AMERICA
Crim. No. 12-303 (NLH)
V.
OPINION
ADAM LACERDA,
a/k/a "Robert Klein,"
et al.

Hillman, District J.
I.

PROCEDURAL HISTORY
This Court presided over a jury trial1 in which the

defendants Ian Resnick and Genevieve Manzoni and two others were
convicted of various counts involving a devious telemarketing
scheme that scammed over 300 victims of losses approximating
$10,000 each.

Many of the victims were elderly, unsophisticated

financially, or, in the depths of the Great Recession, were in
dire financial straits.

Now before the court are motions by the

named defendants for judgments of acquittal pursuant
Fed.R.Crim.P. 29 or

in the alternative, a new trial pursuant to

1 The full factual background of this case is familiar to all
parties, and the Court therefore only discusses the facts
relevant to the instant Motion.

Case l:12-cr-00303-NLH Document 424 Filed 06/29/15 Page 2 of 15 PagelD: 10550

For the reasons that follow, those motions

Fed.R.Crim.P. 33.
will be denied.
II.

LEGAL STANDARD
In deciding a Rule 29 motion, the Third Circuit has

instructed that

[i]t is not for [this Court] to weigh the

evidence or to determine the credibility of the witnesses.
United States v. Dent, 149 F.3d 180, 187 (3d Cir. 1998)

t "

(quoting

United States v. Voight, 89 F.3d 1050, 1080 (3d Cir. 1996)).
Instead, this Court "must view the evidence in the light most
favorable to the government" and deny the motion "if any
rational trier of fact could have found the essential elements
of the crime beyond a reasonable doubt." Id.

(internal quotation

marks and citations omitted). Indeed, "[t]he evidence need not
be inconsistent with every conclusion save that of guilt, so
long as it establishes a case from which a jury could find the
defendant guilty beyond a reasonable doubt." United States v.
Carr, 25 F.3d 1194, 1201 (3d Cir. 1994). Accordingly, a
sufficiency of the evidence claim imposes a "very heavy burden"
on the defendant. See Dent, 149 F.3d at 187; Carr, 25 F.3d at
1201.
Defendant Resnick also has moved, in the alternative, for a
new trial under Rule 33 because he claims that the verdict was
against the weight of evidence and a miscarriage of justice.

2

In

Case l:12-cr-00303-NLH Document 424 Filed 06/29/15 Page 3 of 15 PagelD: 10551

deciding a Rule 33 motion based on the weight of the evidence,
the Third Circuit has instructed that "[a] district court can
order a new trial on the ground that the jury's verdict is
contrary to the weight of the evidence only if it believes that
there is a serious danger that a miscarriage of justice has
occurred-that is, that an innocent person has been convicted."
United States v. Brennan, 326 F.3d 176, 189 (3d Cir. 2003)
(internal quotation marks and citation omitted). "Thus,

'motions

for a new trial based on the weight of the evidence are not
favored.

r rr

Id.

(quoting Government of Virgin Islands v.

Derricks, 810 F.2d 50, 55 (3d Cir. 1987)). In determining
whether "an innocent person has been convicted," the Third
Circuit explained that a district court "does not view the
evidence favorably to the Government, but instead exercises its
own judgment in assessing the Government's case." Id.
III.

LEGAL ANALYSIS
A. Defendant Jennifer Manzoni
Manzoni offers four main arguments2 in support of her

motion.

She first argues that the circumstantial evidence

2 The Court has considered the other arguments raised by Manzoni
and, to the extent should arguments were timely raised and not
waived by failure to raise an objection, finds them without
merit. The case agent's testimony that an email in evidence
concerned the fraudulent bank settlement pitch seems evident
from the document itself and questions about who authored it
were raised by her own counsel. As for testimony from the case
agent that he found no evidence that customers were told about
3

Case l:12-cr-00303-NLH Document 424 Filed 06/29/15 Page 4 of 15 PagelD: 10552

offered to the jury that she knew of the fraudulent nature of
the scheme and knowingly joined it was insufficient to prove her
In support of this argument,

guilt beyond a reasonable doubt.

she contends among other things that she was merely a first line
telephonic caller, that she used her real name, she was on the
lowest rung in the sales ladder, that she merely read scripts
that she did not prepare, that she only worked at the company,
the VO Group, for a short period before it was searched by the
FBI, and that no documents or other objective evidence supports
a finding of guilt.
This argument fails.

Although Manzoni was at VO Group for

a short period of time before the FBI raid, the evidence showed
that her role expanded after the raid as she took on the role of
not only pitching deals to potential customers but closing
deals.

Importantly, even though the scripts changed after the

raid, the misrepresentations or outright lies continued.
Manzoni did not have "complaints" before her and was not working
with Wyndham as she claimed, an important, even critical,
misrepresentation that lured and lulled victims into the fraud.

timeshare foreclosure, the statement is not hearsay and a
permissible summary of overwhelming evidence at trial that
customers were told before the execution of the search warrant
that their debt would be paid off - the very opposite of
foreclosure.
4

Case l:12-cr-00303-NLH Document 424 Filed 06/29/15 Page 5 of 15 PagelD: 10553

Nor did VO Group have the ability to pay off time share
debt, the critical element and most lucrative part of the fraud

f
scheme.

As a deal closer, Manzoni pitched the payoff price

(created by her and others out of thin air) and arranged for the
collection of funds from the victim.

Yet, she had no contact

with a mortgage company, bank, or lien holder to pay off the
debt she had promised to expunge, never saw any paperwork
related to those debts from financial institutions, nor could
she have observed anyone else making those arrangements or
payments in this operation because it was all a big lie designed
to separate vulnerable and desperate timeshare.owners from even
more of their money.

Two victims testified and that it was

Manzoni who told them these numerous lies.

With this evidence,3

even if circumstantial, a reasonable juror could easily conclude
beyond a reasonable doubt that Manzoni was a knowing, even
integral part, of a fraud scheme as it evolved and unfolded.
Second, Manzoni argues that the lack of proof undermines
the factual predicate of the Court's earlier denial of her
motion to sever the unemployment fraud counts from the mail and
wire fraud scheme counts.

She argues that the lack of proof of

3 The jury also heard evidence that Manzoni admitted to other
employees, one a co-conspirator, that she knew VO was a
fraudulent enterprise and that she made inconsistent statements
to the FBI. Either or both of these may have properly
considered by the juror and evidence of consciousness of quilt.
5

Case l:12-cr-00303-NLH Document 424 Filed 06/29/15 Page 6 of 15 PagelD: 10554

her knowing participation in the underlying fraud scheme proves
the absence of a transactional nexus with the unemployment
fraud.

As the Court previously ruled, there is a sufficient

transactional nexus between the alleged unemployment fraud and
the underlying telemarking making joinder of those counts
permissible.

The proof of her involvement in the fraud scheme

includes proof of where she worked, when, how she was
compensated and by how much.

Most if not all of these same

facts would have been necessary to assess whether she committed
unemployment fraud and when and by how much.
As the Court noted at oral argument, separate trials on
these counts would have involved very similar proofs.

The

manner in which the evidence went in in the tried case did
nothing to alter the Court's earlier ruling; it only reinforced
it.

The more potentially compelling argument that a finding of

guilt on the telemarketing fraud would cause the jury to infer
guilt on the unemployment fraud without the requisite proof did
not play out as the Defendant feared it would.

The Jury

acquitted on the unemployment fraud counts while convicting her
on the telemarketing fraud.

Clearly, an attentive and

discerning jury weighed the relatively weak and confusing proofs
on the unemployment scheme against the substantial evidence of
her personal involvement in the time share payoff fraud and
convicted on the latter and rejected the government's case as to
6

Case l:12-cr-00303-NLH Document 424 Filed 06/29/15 Page 7 of 15 PagelD: 10555

the former.

This is not prejudicial spillover.

It is our jury

system at its finest.
Third, she reiterates her earlier argument at trial and the
arguments of the other defendants that the government's case
agent gave impermissible overview testimony essentially offering
inadmissible hearsay.

The primary point raised her is the

agent's occasional reference to "victims" of the defendant's
crimes before those witnesses had testified.

Manzoni also

questions whether the agent's characterization of certain
documents and inferences he derived from them was proper and
whether he gave impermissible testimony about defendant Adam
Lacerda's state of mind.
First, the opinion elicited from the case agent on redirect
about Adam Lacerda's reason for his anger over the contents of
an email (that he didn't want evidence of their fraud written
down) was in direct response to an attempt by defense counsel to
get the case agent to admit that Lacerda's angry outburst was
evidence of his innocence (he was angry because he had
discovered his employees were lying to customers).

This was

fair rebuttal and in any event did not relate at all to
Manzoni's state of mind and hence was not prejudicial to her.
As for the agent's comments concerning his view that notes
on Manzoni's desk reflected commissions this would appear to be
7

Case l:12-cr-00303-NLH Document 424 Filed 06/29/15 Page 8 of 15 PagelD: 10556

admissible under Fed.R.Evid. 701.

The agent's testimony was

based on his extensive investigation of how the VO Group
To that extent it was based

operated and paid its employees.

on that investigation his opinion was "rationally based on the
witness's perception."

This commonly employed compensation

method for sales people hardly required the expertise of a
forensic accountant.
worst cumulative.

Even if not admissible as such, it was at

That Manzoni was paid by commission was not

in dispute and the fact that she kept such records on her desk
could hardly be characterized as prejudicial.
As for the issue of the agent's characterization of certain
people as "victims", vigorously raised at trial and reasserted
here, we view this as more sound and fury than substance.

That

an FBI agent would begin an investigation, expand it after a
preliminary view of the evidence, take various investigative
steps including interviewing numerous witnesses, examining
documents and other tangible evidence, obtaining confessions and
admissions and signing up cooperating witness who would testify
to victimizing clients, and then recommending charges to the
U.S. Attorney after concluding that citizens had been victims of
a financial crime hardly seems a surprising or unusual process
even to a lay juror.

8

Case l:12-cr-00303-NLH Document 424 Filed 06/29/15 Page 9 of 15 PagelD: 10557

What would truly be shocking would be an agent recommending
charges after an investigation that concluded there were no
victims.

We pause to note here that a criminal trial is an

adversarial process.

The government contends the defendants

committed crimes, that real people were victims of financial
fraud and would testify as such, that cooperators will admit to
their roles in the crime, and the investigation and evidence
derived from that investigation proves the guilt of the charged
defendants.

The defense takes the opposite tact - that there

was no fraud or, as in this case, if there was a fraud my client
was not involved and the only fraud was that admitted to by the
cooperators who have blamed others falsely to save their own
hides.

That each side would take up its respective banner and

fly it high and that its witnesses would support that theme,
within the rules of evidence, is the normal process of almost
any criminal trial.
This is not to say that the defendants have not expressed a
meaningful concern or potential problem.

That a federal law

enforcement agent may view a citizen as a victim it just that his or her view.

And any assumption of that fact by the jury

simply because an agent made that characterization would surely
pervert the truth-seeking adversarial process lauded above and
intrude on the proper role of the jury.

But in the view of this

Court that risk is at best speculative and contrary to the
9

Case l:12-cr-00303-NLH Document 424 Filed 06/29/15 Page 10 of 15 PagelD: 10558

efforts and results at trial.

Throughout the trial, the Court

reiterated to the jury as early as voir dire and through opening
remarks, in curative instructions during the trial, and in its
final instructions, that the jury, and only the jury, was the
finder of facts, the sole judges of credibility, and that they
were free to believe all, or none, or some, of any witness's
testimony, law enforcement agents included.
In the process of voir dire each juror acknowledged to
their assent to the principle that a law enforcement officer's
testimony was to be given the same weight as any other witness.
That the jury took these instructions to heart and followed them
is evident from their verdict, acquitting one defendant all
together and, as noted, acquitting Manzoni of several counts.
This was a jury swayed by evidence and not afraid to reject
unsupported inferences.
Fourth, she argues that the testimony of the witness David
Jasper, conveyed to the jury by way of an audio tape and
proffered against another defendant and the defendant's witness
as impeachment, devolved into impermissible hearsay testimony
about Manzoni derived from her conversations with Jasper's wife,
Marie.

This argument is without merit.

First, Marie Jasper

testified and at trial and in emotional testimony described how
Manzoni had lied to her to obtain money.

10

Of course, the fact

Case l:12-cr-00303-NLH Document 424 Filed 06/29/15 Page 11 of 15 PagelD: 10559

that an out-of-court declarant later testifies at trial does not
make their prior hearsay statements admissible, but it does.
blunt to a significant degree the alleged prejudicial effect of
hearing what David Jasper said his wife had said earlier.
More importantly, the tape was not offered and admitted for
the truth of Marie Jasper's out of court statements.

The tape

itself was a business record, and the second layer of hearsay Marie Jasper's statements to her husband - were properly offered
to show the context and motive for Dennis Nadeau's pre-trial
efforts at witness tampering, a plan orchestrated and directed
by Manzoni's co-defendants Ashley and Adam Lacerda.
Nadeau engaged in witness tampering is clear.

That Dennis

He has pled

guilty to that crime and is awaiting sentencing before this
Court.

Any potential spill over was negated by this Court's

repeated curative instructions that the evidence be considered
only to impeach Nadeau and as evidence of the Lacerda's witness
tampering and not as substantive evidence against Manzoni.
B. Defendant Ian Resnick
Defendant Resnick adopts and amplifies some of these
arguments contending that some of the overview testimony focused
on alleged victims that did not testify.

Resnick also argues

that the overview testimony was so extensive it created a
pervasive taint over the trial.

Like Manzoni, Resnick also

11

Case l:12-cr-00303-NLH Document 424 Filed 06/29/15 Page 12 of 15 PagelD: 10560

argues that no rational juror could find him guilty on the
evidence.

Again, like Manzoni, his arguments lack merit.

Taking the last argument first, there was overwhelming
evidence from which a rational juror could conclude that Ian
Resnick was not only a knowing participant but a significant
manager of this elaborate fraud scheme.
First, the jury heard evidence that Resnick provided the
conspirators with a list of Resnick's Wyndham customers, lists
that played a key role in the initial fraudulent sales pitch
because it reinforced the lie that VO Group was acting on
Wyndham's behalf.

The jury also heard evidence that Resnick was

trained by Adam Lacerda, made the fraudulent bank settlement
pitch personally,4 lied to customers about representing banks,
and made up settlement numbers.

They also heard evidence that

he became Adam Lacerda's close confidant and enforcer,
disciplining employees, and become one of the firm's highest
paid employees directly benefitting financially from the small
army of fraudsters employed by the VO Group boiler room
operation.

4 Ricky Baker testified that Resnick defrauded him using the bank
settlement pitch and used the mail and interstate wires in
furtherance of the scheme.
In addition to Count 1, this
evidence was sufficient for rational juror to find Resnick
guilty of Counts 18, 32, and 33.
12

Case 1:12-cr-00303-NLH Document 424 Filed 06/29/15 Page 13 of 15 PagelD: 10561

His skills at deception and high pressure sales were so
good, one of his two main roles at the end was to close deals
lower level employees could not, taking their commission for
himself.

As the Court noted at trial, it would more than

reasonable for a juror to conclude that the "Reaper" would have
to know how the fraud worked to be an effective deal closer.
His other main role at the end was damage control, attempting to
placate customers who had been victimized, lying to them or
deceiving them all over again.
The vast evidence that Resnick was one of the leaders of
the VO Group fraud demonstrates that the jury could have easily
concluded that Dorothy Gerlach was a victim of the conspiracy
and convict Resnick on the substantive counts involving her.
His Confrontation Clause argument was not timely raised and even
if it had it would be without merit.

The underlying business

records of VO Group showing that Gerlach was a victim of the
bank settlement fraud was not testimonial.

The records showed

what Resnick admitted, that he talked to her about a bank
settlement and she dutifully mailed in her $14,500 check as he
arranged.

Of course, there was no bank settlement because as

Resnick knew VO Group did not represent banks as they claimed.
As with the other Counts of which he was found guilty, a
rational juror could easily conclude all of the elements of the

13

Case l:12-cr-00303-NLH Document 424 Filed 06/29/15 Page 14 of 15 PagelD: 10562

mail and wire fraud counts (Counts 20 and 34) had been
established beyond a reasonable doubt.
Lastly, his argument of taint because the agent viewed
certain customers as victims is no more convincing than
Manzoni's same argument.

That VO Group acted to defraud its

customers was not in serious dispute at trial.

Rather the issue

was whether the fraud was committed solely by the numerous
cooperators, the individual defendants on trial arguing that
they were well meaning consumer advocates duped by the former
employees along with the customers.

The jury did not believe

it, and not because the agent thought the same - because the
evidence convincingly proved they were active and at times vital
participants in the conspiracy.

In sum, viewing the evidence in

the light most favorable to the government the evidence
established a case from which a jury could find that both
Manzoni and Resnick were guilty of each of the counts of which
they were convicted.

Their respective Rule 29 motions will be

denied.
C. Rule 33
The Court concludes similarly that their respective Rule 33
motions are without merit.

There is no serious danger - indeed

no danger at all - that a miscarriage of justice occurred and
that an innocent person was convicted.

14

On the contrary, the

Case l:12-cr-00303-NLH Document 424 Filed 06/29/15 Page 15 of 15 PagelD: 10563

evidence showed that while neither Resnick nor Manzoni drafted
the fraudulent bank settlement pitch that they both made the
pitch personally, directed the payment of money to the firm,
benefitted from the scheme, had management roles, and had every
reason to know the representations that their customer's bank
debt would be paid off were false.

This description of the

evidence merely scratches the surface but is more than enough to
conclude their knowing and willful participation in a callous
fraud that targeted the vulnerable.

There is no injustice in

the conviction of those like Resnick and Manzoni who knowingly
furthered and profited from the goals of this sinister
conspiracy.

IV. CONCLUSION
For the reasons set forth above,

the Court will deny the post­

trial motions of defendants Manzoni and Resnick.
An appropriate Order follows.

s/ Noel L. Hillman
NOEL L. HILLMAN, U.S.D.J.

At Camden, New Jersey
Dated:
June 29, 2015

15

Michael E. Riley, Esquire
Law Offices of Riley & Riley
The Washington House
100 High Street, Suite 302
Mount Holly, New Jersey 08060
(609] 914-0300
Attorney for Defendant Ian Resnick
IN THE UNITED STATES DISTRICT COURT
FOR THE DISTRICT OF NEW JERSEY
UNITED STATES OF AMERICA,
Criminal No.: 12-303 (NHL)
Plaintiff
vs.

NOTICE OF MOTION FOR NEW TRIAL
ADAM LACERDA, etal.,
Defendants
TO:

Alyson Oswald, Esquire, Assistant U.S. Attorney
R. David Walk, Jr., Esquire, Assistant U.S. Attorney
Camden Federal Building and U.S. Courthouse
401 Market Street, 4th Floor
Camden, New Jersey 08101

PLEASE TAKE NOTICE that on such date as the Court shall direct, Defendant, Ian
Resnick, by his undersigned counsel, hereby submits his Motion for a New Trial pursuant to
F.R. Crim. P.33. Mr. Resnick also respectfully requests that this Court hold oral argument
on the Motion and requests an Evidentiary Hearing for factual determinations related to
the application herein.
Respectfully Submitted,
/s/ Michael E. Rilev
Michael E. Riley, Esquire
Attorney for Defendant Ian Resnick
Dated: June 24,2015

\
+1.

EXHIBIT B

/

cy^

75

■MESISCA - DIRECT - OSWALD
THE COURT:

1

All right.

Well, this is an adversarial

Obviously, it's for the jury, and my instruction

2

process.

3

should be — will be clear as to the presumption of innocence

4

and clear as to the burden on the government.

5

would live in a very strange world if the government was

6

precluded from referring to someone as a victim.

7

clearly the theory of their case.

8

theory which some defendants have acknowledged and even

9

embraced.

I don't

But I think we

And that's

At least some of

a

I know of no rule of law, I don't

10

believe 701, 702 or 704 requires the government to refer to

11

people as customers, which is the theory of the defense.

12

Alice in Wonderland.

13

It's

Now, the rules are clear that he cannot give opinions

14

about things that are technical, he can't give opinions as to

15

the ultimate issue of mental intent.

16

conduct an investigation and express his views as to what he

17

believes, based on his rational perception of what he saw,

18

what he heard, what he did, what happened.

19

his understanding of how the process worked at the business.

20

But he's entitled to

And that includes

The problem, part of the problem here, Ms. Oswald, is
I would not

I

21

your questioning, how you're asking it.

22

would not preclude a question, "Based on your investigation,

23

do you have an understanding about how the process of this

24

particular paperwork worked?"

25

questioning is making this issue somewhat unnecessarily fuzzy,

I think that's fine.

United States District Court
Camden, New Jersev

But your

235
■MESISCA - DIRECT - CEDRONE

.

Is that correct, sir?

1

Q.

You're the case agent.

2

A.

Yes, sir.

3

Q.

And, pretty much, you sort of are the central depository

4

of all documents for -- that were received by the government.

5

Is that correct?

6

A.

I wouldn't call them the central depository, no.

7

Q.

Well, when -- if documents were received by another

8

agent, sir, in relation to the case, would they be given to

9

you?

10

A.

11

might get a copy and review them at some point, yes.

12

Q.

13

responsibility for overseeing the investigative file?

14

A.

Yes, sir.

15

Q.

And it would be your — part of your responsibility to

16

make sure the investigative file is accurate and complete.

17

that correct?

18

A.

Yes.

19

Q.

Now, you didn't personally receive documents from

20

Ms. Gerlach.

21

A.

That's correct.

22

Q.

But someone else did, right?

23

A.

Yes, sir.

24

Q.

And they ultimately made their way to the investigative

25

file.

They would be made part of the investigative file and I
\

All right.1

Were you

did you have ultimate

Is that correct?

Is that correct?

United States District Court
Camden, New Jersev

Is

236
■MESISCA - DIRECT - CEDRONE

'

1

A.

Yes, sir.

2

Q.

Okay.

3

just handed you as Defense Exhibit 403 are the documents

4

received from Ms. Gerlach?

5

A.

6

some of these documents in the past, yes.

7

Q.

8

sent to you -- sent to the FBI?

9

A.

It appears to be, yes.

10

Q.

Okay.

11

actually, would you agree with me, sir, that the first page of

12

the package of ‘documents I just sent to you --

And are you aware of whether or not what I have

I'm aware that Ms. Gerlach sent documents and I reviewed

And are those documents what you understand Ms. Gerlach

Now, the first several pages of those documents -\

MS. OSWALD:

13
14

MR. CEDRONE:

Well, I'm publishing what's already in

evidence, sir, 317 .
MS. OSWALD:

17
18

He's testifying

and publishing a document that's not in evidence.

15
16

Objection, Your Honor.

And getting in the documents that's not

in evidence, through the back door in the same manner.
THE COURT:

19

Yeah, this document is not in evidence.

ask the witness what he recalls and what he

20

Please don't

21

knows.

22

BY MR. CEDRONE:

23

Q.

24

marked as Defendant's Exhibit 403, are there portions of the

25

client manual that's in evidence as Defense Exhibit 317, sir?

Included in the package, sir, that has been -

United States District Court
Camden, New Jersev

that's

89

■Resnick - Direct - Riley
1

Q.

What do you recall about Mr. Baker?
MR. WALK:

2
3

a wide open area.

4
5

THE COURT:

That's too broad, Mr. Riley.

MR. RILEY:

Sure.

Please

rephrase.

6

'

Your Honor, again, this seems to be quite

7

BY MR. RILEY:

8

Q-

Did Mr. Baker testify here?

9

A.

Yes.

10

Q.

All right.
n

He was the gentleman from Georgia?
\

li

A.

Yes.

12

Q.

Had been in the army?

13

A.

Yes.

14

Q.

Now, do you recall him saying that he spoke to Ian

15

Resnick twice in July of 2010?

16

A.

Yes.

17

Q.

And he also spoke to Ian Resnick in August, prior to his

18

August the 8th operation.

19

A.

Yes.

20

Q.

Now, did he talk to you?

21

A.

Absolutely not.

22

Q.

Why not?

23

conviction?

24

A.

I wasn't even employed there.

25

Q-

Now, do you have an explanation for that, why a person

How can you say that with such a firm

United States District Court
Camden, New Jersey

90

■Resnick - Direct - Riley
1

would call Mr. Baker and refer to himself as you?

2

A.

No.

3

Q.

Do you recall giving lead sheets to the firm?

4

A.

Yes.

5

Q.

Was Mr. Baker's lead sheet possibly in there?

6

A.

It's possible.

7

Q.

Now, we have also seen a document

8

MR. RILEY:

If I can -- if I can do this, Judge.

9

THE COURT:

Yes.

10

MR. RILEY:

It would be exhibit number -- if I may,

\

11

Judge, get permission to publish this exhibit number.

12

THE CdURT:

Yes.

13

MR. RILEY:

It's Exhibit 120C(1), I believe, Page 4.

14

THE COURT:

That's in evidence.

15

MR. RILEY:

Thank you.

16

THE COURT:

120C(1).

17

(The exhibit was published to the jury.)

18

MR. RILEY:

Okay.

You may publish.

Can we go backwards?

I think this happened to me before, Judge.

19

page.

20

last page of Exhibit 120C(1).

21

BY MR. RILEY:

22

Q.

Do you see that, Mr. Resnick?

23

A.

Yes.

24

Q.

What is that?

25

A.

Owner sheet.

What's that form called?

United States District Court
Camden, New Jersev

The last
This is the

91

•Resnick - Direct - Riley
1

Q.

Okay.

2

A.

Deal sheet.

3

Q.

Excuse me?

4

A.

A deal sheet.

5

Q.

Okay.

6

A.

The person putting the contract — putting in for a

7

contract.

8

Q.

Okay.

9

A.

Yes.

10

Q.

It shows he's the client?

11

A.

Yes.

12

Q.

The date on the top is what?

13

A.

7-10-2010.

14

Q-

Were you employed there at the time?

15

A.

No.

16

Q.

Looking through this deal, can you tell who was the

17

person that spoke to Mr. Baker and put together this deal?

18

A.

It says Vinnie Giordano.

19

Q.

Okay.

20

here and accused you of using the scripts, right?

21

A.

Yes.

22

Q.

He was the same Vinnie Giordano you threatened to meet

23

him in the parking lot or take a drug test?

24

A.

Yes.

25

Q-

Same guy that came back later that you restricted?.

Who fills those out?

And it's made out to Ricky Baker, right?

\

And Vinnie Giordano was the gentleman that came in

United States District Court
Camden, New Jersey

105
-Resnick

Direct - Riley

1

A.

2

had points in Hawaii, and we were doing a settlement deal.

3

And she

4

an issue after the fact because I believe I promised her her

5

new points would be Hawaii.

6

titling company didn't put Hawaii up first.

7

go through a process of redoing that.

8

mean, that's all I really remember.

9

remember with Dorothy Gerlach.

What I recall about Dorothy Gerlach is she wanted -- she

I know she liked Hawaii and I remember there being

And, for whatever reason, the
I know we had to

But other than that, I
That was the only issue I

10

Q.

Did you defraud her in any way?

11

A.

Absolutely not.

12

Q.

You realize you've been charged in this court with

13

defrauding Dorothy Gerlach.

14

A.

I know.

15

Q.

And you did not?

16

A.

Absolutely not.

17

Q.

You were also charged with conspiracy, that you conspired

18

to do a variety of certain things, for instance, using these

19

scripts and lying to people.

20

A.

Never.

21

Q.

There's been allegations about other aspects of the VO

22

Group.

23

do you recall the testimony regarding the person with the

24

timeshare that wanted to sell it for $500 to VO Group, to

25

market it for them?

Did you ever use those scripts?

Not one time.

For instance, the -- the attempt to sell timeshares,

United States District Court
Camden, New Jersev

106
■Resnick

Direct - Riley

1

A.

Yes.

2

Q.

Okay.

3

A.

Absolutely not.

4

Q.

Were there times throughout this trial that you heard

5

things that you never heard before?

6

A.

Many times.

7

Q.

All right.

8

heard here in this courtroom that you never had any knowledge

9

of before.

10

A.

Specifically, tell us the things that you

That we were
MR. 'WALK:

11
12

Did you have any part in that?

Your Honor, that's kind of a broad,

open-ended question, calls for a narrative.
THE COURT:

13

I'll allow it.

14

BY MR. RILEY:

15

Q.

16

the very first time as it relates to the VO Group in this

17

courtroom, what are the things that you heard?

18

A.

19

extent of this bank 'settlement deal.

20

Q.

You had no idea -it was that pervasive?

21

A.

No.

22

Q.

Did you ever participate in any of those conversations

23

with clients with this bank settlement deal

24

A.

Absolutely not.

25

Q.

— where people came in and told that they were promised

If you can specifically, sir, the things you heard for

That we were a resale company, that -- I guess also the

United States District Court
Camden, New Jersev

107

■Resnick - Direct - Riley
1

their mortgages were going to be paid off?

Did you ever

2

promise anybody to pay off their mortgage?

3

A.

Never.

4

Q.

Now, you've also been charged with violating and

5

receiving unemployment compensation improperly.

6

that?

7

A.

Yes.

8

Q.

And you've been charged -- the dates run from October

9

I'm sorry — August 28th, 2011, until sometime I believe the

Do you recall

10

following March, in that time frame.

11

A.

Okay.

12

Q-

Did you receive benefits you weren't entitled to?

13

A.

Yes.

14

Q.

Why didn't you notify unemployment that you had a job on

15

August 28th, if you know?

16

A.

17

know, with the computer, but to be honest, I was afraid to.

18

Because I went through a lot to get unemployment benefits in

19

the first place and I was afraid to say anything that would

20

change that.

21

Q.

Were you working full time August 28th?

22

A.

No.

23

Q.

When did you start working full time?

24

A.

I wouldn't say I was full-time until I guess March, 2011.

25

Q.

Did you ever calculate or did you ever know how much the

I used to do this through the computer.

I'm not

United States District Court
Camden, New Jersev

you

108
■Resnick - Direct - Riley
1

partial benefits of unemployment would be for a person who's

2

working part-time?

3

A.

I'm not really sure.

4

Q.

Did you ever lie and tell people that there were

5

committees set up to review some of these deals and to offer

6

guidance on how these deals would go?

7

A.

I never lied about that.

8

Q.

And those committees are made up by senior members of the

9

VO Group?

There are committees.

10

A.

Yes.

li

Q.

There was also testimony that said that VO

12

representatives*, first-line callers, would call up clients and

13

say, "Hey, we understand you have a complaint," and they would

14

say, "I don't have a complaint, I don't know what you're

15

talking about."

16

A.

No.

17

Q.

Why not?

18

A.

It wasn't my — I mean, it's not my thing.

19

them not to do that.

20

Q.

You trained them not to do that?

21

A.

Yes.

22

Q.

Why would you train somebody not to do that?

23

A.

If there's a complaint, I want to know about the

24

complaint.

25

throat.

Did you ever engage in that type of behavior?

I would train

But I don't want to force a complaint down their

If they're happy, great, they're-not a client.

United States District Court
Camden, New Jersey

*»

\

EXHIBIT C

LAW OFFICES OF

RILEY & RILEY
THE WASHINGTON HOUSE
100 High Street, Suite 302
Mount Holly, NJ 08060
Mailing Address

(609) 914-0300
(609) 914-0323 FAX
Michael E. Riley
Tracy L. Riley
John P. Montemurro, Of Counsel

BY APPOINTMENT
1616 Pacific Avenue, Suite 305
Atlantic City, NJ 08401

WORKERS’ COMPENSATION
3 Eves Drive
Marlton, NJ 08053

February 19,2019

Ian Resnick, #55032-004
FCI Coleman Low
846 NE 54th Terrace
Sumterville, FL 33521
RE:

USA v. Lacerda. et al

Dear Ian:
On February 15, 2019 I sent a two-part email to you responding to your questions.
If you did not receive it, please let me know and I will forward it to you again.
As per my email, I am enclosing a copy of the trial transcript, along with a copy of
the Brief in Support of Motion for a New Trial for your review.
Thank you.
Very truly yours,
LAW OFFICES OF RILEY & RILEY
/s/ Michael E. Rilev
Michael E. Riley
MER/pg
Enclosures

UNITED STATES DISTRICT COURT
FOR THE DISTRICT OF NEW JERSEY
UNITED STATES OF AMERICA,
Criminal No.: 12-303 (NHL)
Plaintiff
vs.
ADAM LACERDA, et al.,
Defendants

BRIEF IN SUPPORT OF MOTION FOR A NEW TRIAL PER F.R. CRIM. P.33
1.

FACTUAL BACKGROUND .
On September 5,2013, defendant, Ian Resnick was found guilty after a jury trial.

The jury determined that he was guilty-on Count 1 of the Superseding Indictment, to wit:
Conspiracy to Commit Mail Fraud and Wire Fraud, Count 18 (Mail Fraud), Count 20 (Mail
Fraud), Count 32 (Wire Fraud), Count 33 (Wire Fraud), Count 34 (Wire Fraud).
At the conclusion of the government's case, the defendant, Ian Resnick moved for
dismissal of the charges pursuant to Rule 29 (a).
On October 14, 2013, the defendant, Ian Resnick filed Post-Trial Motions seeking a
judgment of acquittal pursuant to F.R Crim. P.29 and for a new trial pursuant to F.R Crim,
P.33 (Document 345). These motions were argued before the Court on October 2,2014.
After the Court reviewed the briefs and listened to argument, the Court indicated that it
would render a written opinion on this matter and, therefore, withheld any formal ruling.
It should be noted that as of this date, those motions filed on October 14,2013 have not yet
been resolved.

In those motions argued before the Court on October 2,2014, the central focus was
the lack of evidence that the government had regarding the Ricky Baker and Dorothy
Geriach matters.
The Court will recall that the argument regarding Ricky Baker was that the
government presented to the jury an allegation that Ian Resnick contacted Ricky Baker in
July 2010. His testimony was quite specific about the individual who contacted him and
labeled that individual as Ian Resnick. He further indicated that Ian Resnick contacted him
in July and August 2010. During the course of the trial it became clear that when Mr. Baker
was first contacted, Ian Resnick was not an employee at VO Group. It also became clear
\

from the testimony that a co-worker of Mr. Resnick by the name of Vinny Giordano was the
individual who actually contacted Mr. Baker initially.
The issues raised regarding Dorothy Geriach were different The allegations
regarding Dorothy Geriach were not supported by any testimonial evidence. Mrs. Geriach
did not appear and therefore was not present to offer testimony. The government
presented three emails that were exchanged between Mrs. Geriach and Ian Resnick, none of
which suggested any criminal activity on behalf of Mr. Resnick, attached as Exhibit A The
government's evidence was presented by Special Agent Mesisca. Agent Mesisca was
allowed to testify in what is commonly referred to as "overview testimony." The overview
testimony was objected to at the time but the government was allowed to present it and
the juiy found Mr. Resnick guilty of criminal allegations regarding Dorothy Geriach and her
claims.
A draft presentence report was circulated by the probation department and a copy
was provided to Mr. Resnick and counsel. During the review of the draft presentence
2

report, probation made a number of allegations regarding potential victims. As a result,
defendant, Ian Resnick submitted an objection letter. Among other things defendant
Resnick objected to were the allegations of individuals being victims when there was no
factual support for these claims presented to the jury or to counsel. As a result of those
objections, the government forwarded two CDs containing victim's supporting documents.
The first CD was created on January 25,2015. On March 6, 2015, the second CD was
provided to counsel containing vital documentation regarding alleged victimization.
In the course of preparing for sentencing, a number of documents were submitted to
counsel that had never been seen before.
On January 4,2011, an FBI employee by the name of Claudia H. Theibault prepared a
302 investigatory report, attached as Exhibit B. In this report, it is alleged that Dorothy
Gerlach advised that if Mrs. Gerlach paid $14,000.00 based on Resnick’s claim that the VO
Group was making arrangements with banks to pay off loans. The 302 indicates that
Gerlach stated that she sent the $14,000.00 to VO Group to pay off her timeshare in Bali Hai
in Kauai. Clearly, a statement which would indicate that Mr. Resnick was participating in
what has become known as the "bank pitch." The substance of the investigative report
would suggest that clearly Mr. Resnick was engaging in illegal activities.
At the same time, in early January 2011 there were emails exchanged between
Dorothy Gerlach and the FBI employee by the name of Claudia Theibault. These emails
appeared in the victim documents contained on the CD presented by the government.
These emails were not presented to the jury. The emails are attached herewith as Exhibit
C. A brief reading of the emails would suggest that Mrs. Gerlach did not advise Ms.
Theibault by email that Ian Resnick made the representations that are claimed and
3

contained in the FBI 302. Clearly this information would be impeachment and certainly
worthy of the jury's attention. These documents were not presented by the government
and were not discovered by counsel while reviewing discovery prior to the trial.
On May 3, 2012, Agent Mesisca appeared before the grand jury to present evidence
against the defendants. On page 60 through page 62, he referenced the Gerlach allegations,
attached as Exhibit D. He presented information to the grand jury which was consistent
with the information provided in the FBI 302. It should be noted that there is no record
that Agent Mesisca spoke to Mrs. Gerlach. It appears only that the FBI analyst spoke to Mrs.
Gerlach. Accordingly, the testimony Agent Mesisca presented to the grand jury was
hearsay. Agent Mesisca said'quite specifically that Resnick offered to settle the Gerlach
debt for $14,500.00. He further* indicated that he could make this offer because Wyndham
had sold numerous mortgage loans to various banks and the banks wanted to get the loans
off their backs.
It was not the only time that Agent Mesisca parodied the contents of the FBI 302, but
this time it was before the jury, attached as Exhibit E. He again went on to reiterate that
defendant Resnick offered to settle the Gerlach debt for $14,500.00 and that the reason he
could do that was because banks were taking reduced amounts in an effort to resolve the
timeshare debts. Clearly indicating to the jury that Mr. Resnick was engaged in activity
which was illegal. Again, he was testifying in his role as the case agent and permitted to
give overview testimony, which included unsubstantiated hearsay and the impressions of
others that did not appear for trial. Significantly, for some unknown reason, Dorothy
V

Gerlach did not appear for trial and testify before the jury.

4

During the course of preparation for sentencing, another document was forwarded
to counsel. It appears to be a handwritten document prepared by Dorothy Gerlach in
response to requests from the government. Further, it appears to be the first and only
representation by the alleged victim, Gerlach as to what her complaints were regarding VO
Group. It is attached here as Exhibit F. She indicates in her handwritten document, "We
contracted to purchase 350,000 Wyndham points for $14,500.00. We received contracts
and purchase agreements for 231,000 points. The outstanding balance of 119,000 points
valued at $4,785.00 have not been received.”
There is an absolute absence of any reference to Ian Resnick suggesting that
$14,500 would be used to pay off her timeshare debt Further, there is no other reference
made by Mrs. Gerlach that defendant Resnick represented to her the information contained
in the 302 investigative report the grand juty testimony and trial testimony of Agent
Mesisca.
The evidence contained in Exhibit E are clearly the actual statements of alleged
victim Gerlach. By virtue of the manipulation of clearly false information contained in the
302 and the testimony of the FBI Agent before the grand jury and trial jury, the clear
inference was that Ian Resnick was engaged in criminal activity. The newly discovered
evidence sheds light on the reality of the Gerlach situation and further highlights the
completely unacceptable nature of wide ranging "overview testimony.”
2.

ARGUMENT
The federal rules of criminal procedure provide relief where it appears that newly

discovered evidence can cause a probability of a different verdict

5

Under the Federal Rules of Criminal Procedure, relief can be found. "The Court may
vacate any judgment and grant a new trial if the interests of justice so requires." F.R. Crim.
P.33 (a). A motion for a new trial, "grounded on newly discovered evidence” must be filed
within three years after the verdict or the finding of guilty... any motion for a new trial
grounded on any reason other then newly discovered evidence must be filed within 14
days of the verdict or the finding of guilty, F.R. Crim. P.33 (b).
Ordinarily, five prerequisites must be met to justify the grant of a new trial on the
ground of newly discovered evidence:
1.

evidence must be newly discovered (i.e. discovered since the trial
concluded); **

\

2.

defendant musthave used due diligence to discovery evidence;

3.

newly discovered evidence must be material to issues before the court;

4.

newly discovered evidence is not merely cumulative or impeaching;

5.

newly discovered evidence is of such a nature that it would probably require
a different result at trial.

These requirements must be met when a defendant claims he was convicted by false
testimony, see United States v. Woods 301 F.3d 556,562 (7th Cir. 2002).
It is further alleged that the government had the handwritten document. Exhibit F,
in its possession and in light of its content should have provided it pursuant to its Brady
obligations. Case law suggests that when the newly discovered evidence is a product of a
Brady violation a new trial may be warranted if the withheld evidence is merely "materiar
and therefore creates "a reasonable probability” that there would have been a different
verdict See United States v. joslvn 206 F.3d 144 (1st Cir. 2000).
6

In explaining the Brady “reasonable probability standard" the Supreme Court has
stated the question is not whether the defendant would more likely than not have received
a different verdict with the evidence, whether in its absence he received a fair
trial...resulting in a verdict worthy of confidence.” Strickler v. Green 537 U.S. 263 (288)
119 s. ct. 1936 (1952) 1999.
The Third Circuit has considered the issue of newly discovered evidence to
determine whether impeachment evidence is enough to warrant a new trial, explicitly
stating that the current question for the Court to ask itself is: "was there a strong
exculpatory connection between the newly discovered evidence and the facts that were
presented at trial or did the newly discovered evidence strongly demonstrate the critical
evidence at the time of trial against the defendant was very likely to have been false."
United States v. Ouiles 618 F. 3rd 383,392-93 (3rd Cir. 2010). In this case, it appears that
the newly discovered evidence strongly demonstrates that the information presented by
the government in their overview testimony was very likely false. There is no question that
the document discovered as newly discovered evidence is material to die issue of the guilt
or innocence of Ian Resnick with regard to the Gerlach matter. The nature of this evidence
is such that if made available to the defendant prior to trial or during the course of the trial
it would certainly have raised a reasonable probability of acquittal.
If the jury had been given this information, the likely result of the allegations
presented to the jury regarding the Gerlach matter would not have been believed and
therefore Resnick would have been acquitted. The evidence clearly raises reasonable
doubt as to the innocence of Ian Resnick.
3.

CONCLUSION
7

The issues presented in this application must be considered with the issues
contained in the earlier motion raised by defendant Resnick pursuant to Rule 29 and Rule
33, see Document 345. Those issues have not yet been resolved and must be resolved prior
to sentencing. See United States v. loseph 996 F.2d 36 (3rd Cir. 1993). The defendant
respectfully requests that the issues raised earlier be considered in the light of the
application made herein. The defendant respectfully requests oral argument on this issue
and an evidentiary hearing to determine the true nature of the
source of the information contained in the 302, which so clearly is erroneous. After the
Court has had an opportunity to hear oral argument and to preside over an evidentiary
hearing, defendant Resnick respectfully requests that the Court provide such relief that is
deemed necessary and proper. *
-

Respectfully submitted,
A/Michael E. Rilev
Michael E. Riley, Esquire
Attorney for Defendant, Ian Resnick

Dated: June 24,2015

8

EXHIBIT A
*\

UHKL,/ vuui

correspondence .

rage o oi 3

contrary in this e-mail message, this e-mail message, its contents and any attachments, are not an offer
or acceptance to enter into a contract and are not otherwise intended to bind the sender of this e-mail
message or any other person.

—Original Message—
From: Dorothy Gerlach fmailto:dQerlach@us.ibm.com1
Sent: Friday, October 22, 2010 10:19 AM
To: ian.resnick@vogroup.net
Cc: eric.gerlach@fredmeyer.com
Subject: one more question
Ian We purchased the Wyndam points for Bali Hai - will our points still be at Bali Hai
and will our maintenance fees still remain the same?
Please let us know and then I believe you were going to send us the contract to
e-sign - is that correct?
THANKS
Sincerely,
Dorothy Gerlach
IBM Corporation
IT Optimization Client Solutions
503-578-2342 office/fax
503-957-9090 cell
dgerlach@us.ibm.com

https://www.324maiLcom/owa/?ae=Item&t=IPM.Note&id=RgAA... 1/6/2011

tjri}JKJ-,/vc.Jti / vuui

corresponuence

rage ‘t ui

j

Dorothy Gerlach
IBM Corporation
IT Optimization Client Solutions
503-578-2342 office / fax
503-957-9090 cell
dgerlach@us.ibm.com
— Forwarded by Dorothy Geiiach/Portland/IBM on 10/22/2010 11:14 AM —
From:

ian.resnick@vogroup.net

To:

Dorothy Gerlach/Portland/IBM@IBMUS

Date:

10/22/2010 10:45 AM
Re: one more question

Subject:

Yes, unless there is a new location you would prefer. Give me a call
when you are both available to receive the contract and I will walk you
through it.
Thanks,

Ian B. Resnick
Senior Contract Analyst
Vacation Ownership Group
800 381-9469 Ext. 106
Forbes Magazine
BBB Accredited Company
Notice Regarding Federal Tax Issues: Any tax advice in this communication, is not intended or written
by us to be used, and cannot be used, by a client or any other person or entity for the purpose of avoiding
penalties that may be imposed on any taxpayer.
Uniform Electronic Transactions Act: Despite the Uniform Electronic Transactions Act or the
application of any other law of similar substance or effect, in the absence of an express statement to the

https://www.324mail.com/owa/?ae=Item&t=IPM.Note&id=RgAA... It6/2011

/ v kj ui

correspondence

rage

joi j

III call within the hour, very backed up today

Ian B. Resnick
Senior Contract Analyst
Vacation Ownership Group
800 381-9469 Ext. 106
Forbes Magazine
\

BBB Accredited Company
Notice Regarding Federal Tax Issues: Any tax advice in this communication, is not intended or written
by us to be used, and cannot be used, by a client or any other person or entity for the purpose of avoiding
penalties that may be imposed on any taxpayer.
Uniform Electronic Transactions Act: Despite the Uniform Electronic Transactions Act or the
application of any other law of similar substance or effect, in the absence of an express statement to the
contrary in this e-mail message, this e-mail message, its contents and any attachments, are not an offer
or acceptance to enter into a contract and are not otherwise intended to bind the sender of this e-mail
message or any other person.

—Original Message—
From: Dorothy Gerlach rmailto-.dQerlach@us.ibm.coml
Sent: Friday, October 22, 2010 02:15 PM
To: ian.resnick@vogroup.net
Subject: Fw: one more question
Hi Ian - thanks - just left you a VM - please call me at 503-292-7476 and I'll get
Eric on the line also.
Sincerely,

https://www.324mail.com/owa/?ae=Item&t-IPM.Note&id=RgAA... 1/6/2011

UfcKJLAUH / VUUi

correspondence

rage i ot 5

Notice Regarding Federal Tax Issues: Any tax advice in this communication, is not intended or written
by us to be used, and cannot be used, by a client or any other person or entity for the purpose of avoiding
penalties that may be imposed on any taxpayer.
Uniform Electronic Transactions Act: Despite the Uniform Electronic Transactions Act or the
application of any other law of similar substance or effect, in the absence of an express statement to the
contrary in this e-mail message, this e-mail message, its contents and any attachments, are not an offer
or acceptance to enter into a contract and are not otherwise intended to bind the sender of this e-mail
message or any other person.

—Original Message----From: Dorothy Gerlach fmailto:dqerlach@us.ibm.com]
Sent: Wednesday, October 27, 2010 01:17 PM
To: ian.resnick@vogroup.net
Subject: Fw: one more question

Ian Just got the check from selling some stock for the $14,500 to complete the
purchase of 300K Wyndam points.
Do I send it the PO Box112, Pleasantville, NJ address? Is there anything I need
to include? Is there anyone specific I should address the envelope to?
THANKS
Sincerely,
Dorothy Geriach
IBM Corporation
IT Optimization Client Solutions
503-578-2342 office /fax
503-957-9090 cell
dgeriach@us.ibm.com
— Forwarded by Dorothy Gerlach/Portland/IBM on 10/27/2010 10:14 AM —
ian.resnick@vogroup.net
From:
Dorothy Gerlach/Portland/IBM@IBMUS
To:
Date:
Subject:

10/22/2010 12:26 PM
Re: one more question

https://www.324mail.com/owa/?ae—Item&t—IPM.Note&id—RgAA... 1 /6/2011

I

■«fc

EXHIBIT B

FD-302 (Rev. 10-6-95)

-1-

f

FEDERAL BUREAU OF INVESTIGATION

Date of transcription

of m

DOROTHY GERLACH, born

home telephone nui
HH|HBcellular telephone number______________ was
telephorucally contacted by Investigative Operations Analyst (IOA)
Claudia H. Theibault, Federal Bureau of Investigation (FBI),
Northfield, New Jersey. GERLACH provided the following
information:
GERLACH advised that in September, 2010, IAN RESNICK from
VO GROUP called saying that he was contacting timeshare owners who
had complaints against WYNDHAM. He told her that WYNDHAM had lied
to owners so his company was helping them pay off their timeshares.
Even though GERLACH did not have any issues with WYNDHAM she decide
to listen to his off’6r.' RESNICK said that since she owed
$28,000.00 on her timeshare his company would get her a free and
clear deed for $14,000%00. RESNICK explained the reason for such a
good deal was that WYNDHAM sold numerous loans to banks and they
wanted to get them off their books. GERLACH said that she sent the
$14,000.00 to VO GROUP to pay off her timeshare at Bali Hai in
Kauai. When she received the title transfer paperwork it looked
like she would be receiving deeds for two different timeshares.
When she called VO GROUP regarding the deeds RESNICK said she
misunderstood and to let her Bali Hai timeshare go to collections.
Currently she has not signed the title transfer paperwork and after
speaking with writer plans on trying to get her money back.

r

On January 4, 2011, GERLACH sent documents relating to
her timeshare to IOA Claudia Theibault at the FBI, Northfield,
New Jersey. The documents have been placed in the investigative
file.

m

investigation on

01/04/2011

at Northfield, New Jersey

ile * 329F-NK-118544-302^
by

Date dictated

(telephonically)
N/A

IOA Claudia H. Theibault/chtfr^

This document contains neither recommendations nor conclusions of the FBI. It is the property of the FBI and is loaned to your agency,
it and its contents am not to be distributed outside your'agency.

ENT

sit®

•*

EXHIBIT C

ueriacn - vuuroup

me iransier

JTit£C I UiZ

Gerlach - VO Group - Title Transfer
Dorothy Gerlach [dgerlach@us.ibm.com]
Sent: Tuesday, January 04, 2011 1:50 PM
To:

Theibault, Claudia H.

Claudia Thanks for talking to me this morning. I just left you a VM also.
I will send you the email correspondence between VO Group and us.
Below is a note we got from VO Group yesterday - asking us to verify out title
transfer - We have not signed the paperwork for the title transfer - since we were
not getting "like for like" - or points at Bali Hai in Kauai where we purchased the
orginal points from Wyndam. , %
Does it make sense for us at*this point since we've paid the money to tell VO
Group we want our money back since they are not providing what they
promised....and see what happens?
THANKS

Sincerely,
Dorothy Gerlach
IBM Corporation
IT Optimization Client Solutions
503-578-2342 office/fax
503-957-9090 cell
dgerlach@us.ibm.com
Forwarded by Dorothy Gerlach/Portland/IBM on 01/04/2011 10:44 AM —
From:

"V O GROUP LLC" <vogroup@vogroup.net>

To:

Dorothy Gerlach/Portland/IBM@IBMUS

Date:

01/03/2011 02:46 PM
Title T ransfer

Subject:

https ://www.324mail. com/owa/?ae=Item&t=IPM.Note&id=RgAA... 1/4/2011

oiiK-Lv/\L.n / vuui

ir coiresponuence jpeiweeu

VJ1UU...

rage i uiz,

GERLACH / VO GROUP correspondence (between V 0
Group LLC and Dorohy Gerlach) is Signed and Filed!
Dorothy Gerlach [dgerlach@us.ibm.com]
Sent:

Thursday, January 06, 2011 12:49 PM

To:

Theibault, Claudia H.

Attachments: Dorothy Gerlach - signed.pdf (161 KB)

Claudia - will be sending you several notes regarding correspondence between
ourselves and VO Group
Sincerely,
Dorothy Gerlach
IBM Corporation
West IMT STG Cloud Sales Leader
503-578-2342 office / fax
‘
503-957-9090 cell
dgeiiach@us.ibm.com

From: Vacation Ownership Group fmailto:echosian@echosiQn.com1
Sent: Friday, October 22, 2010 2:39 PM
To: Gerlach, Eric D
Subject: The Dorothy Gerlach (between V 0 Group LLC and Dorohy Gerlach) is
Signed and Filed!

^ EchoSign.

https://www.324mail.com/owa/?ae=Item&t=IPM.Note&id-RgAA... 1/6/2011

utiKi.AL.il/ vuu

) corresponaence

rage iuu

GERLACH / VO Group correspondence
Dorothy Gerlach [dgerlach@us.ibm.com]
Sent: Thursday, January 06, 2011 12:50 PM
To:

Theibault, Claudia H.

Sincerely,
Dorothy Gerlach
IBM Corporation
West IMT STG Cloud Sales Leader
503-578-2342 office/fax
503-957-9090 cell
dgerlach@us.ibm.com
V

---- Forwarded by Dorothy Gerlach/Portland/IBM on 01/06/2011 09:50 AM----From:

ian.resnick@vqgroup.net

To:

Dorothy Ger!ach/Portiand/!BM@IBMUS

Date:

10/27/2010 02:19 PM
Re: one more question

Subject:

Just put it to my attention. We will set up an escrow account for you
when we receive it.

Ian B. Resnick
Senior Contract Analyst
Vacation Ownership Group
800 381-9469 Ext. 106
Forbes Magazine
BBB Accredited Company
https://www.324mail.com/owa/?ae=Item&t=IPM.Note&id=RgAA... 1/6/2011

■ajaxvi^ttA^n / vuu

jr concspunucnee -

jdov^jcvw

vuuuuu...

rage i un

GERLACH / VO GROUP correspondence - ESCROW
Account Information:
Dorothy Gerlach [dgerlach@us.ibm.com]
Sent:

Thursday, January 06, 2011 12:54 PM

To:

Theibault, Claudia H.

Attachments: mannual new pdf.pdf (610 KB)

Sincerely,
Dorothy Gerlach
IBM Corporation
West IMT STG Cloud Sales Leader
503-578-2342 office / fax
503-957-9090 cell
dgeriach@us.ibm.com
— Forwarded by Dorothy Gerlach/Portland/IBM on 01/06/2011 09:54 AM---From:

"V O GROUP LLC" <vogroup@vogroup.net>

To:

<eric.geriach@fredmeyer.com>, Dorothy Geriach/Portland/IBM@IBMUS

Date:

11/19/2010 04:18 PM
Subject: ESCROW Account Information:

Dear Dorothy and Eric,
We have currently begun the process of your title transfer which will
be in the amount of 332,000 Club Wyndham points annually. You have an
activated escrow number which is 99110209019 . We have your pending
transfers of $3454.00 into this escrow account for the processing of your title
and transfer work and$l 1,046.00 was sent to our subsidiary Timeshare
Protection, LLC to finalize your account. You do not need to do anything at
this time because everything is being done for you. In about two weeks you
will receive a closing packet from timeshare closing services Inc. which

https://www.324mail.com/owa/?ae=Item&t=IPM.Note&id=RgAA... 1/6/2011

UliKlv/vx^n 7 VU Ut

r correspondence -

'

ucouii... rage ^ux j

you’ll need to sign and send back to them. You will not need to pay for any
shipping because everything comes prepaid to send back to them.

If you have any questions throughout any of the
process please contact us at our offices. 800-3819469
- Title and transfer company does not know the specific and unique
circumstances surrounding each individual clients accounts.
It will take 6-8 weeks for the resort to accept the title transfer, and for
the new purchase to show up as an active ownership in your account. During
this time you will receive your closing packet and the assignment of
contract.
Please contact us once you get your closing packet so we may go over it with
you:

Customer Care
Vacation Ownership Group

j»l

Telephone: 1-800-381-9469
Address: V O Group LLC
P.O. Box 112
Pleasantville NJ, 08232
E-Mail: customercare@vogroup.net

Notice Regarding Federal Tax Issues: Any tax advice in this communication,
is not intended or written by us to be used, and cannot be used, by a client or

https://www.324mail.com/owa/?ae==Item&t=IPM.Note&id=RgAA... 1/6/2011

ojDjru_,/\\^n. / vuvj

ur cun cspuiiucnce ^uciwccn

J VJIUU...

rage z. ui z

The Dorothy Gerlach
(between V 0 Group LLC
and Dorohy Gerlach) is
Signed and Filed!
From: Vacation Ownership Group (V 0 Group LLC)
To: Dorohy Gerlach {eric.gerlach@fredmeyer.com)
Attached is a signed copy of the Dorothy Gerlach.
Copies have been automatically sent to all parties
to the agreement. You can view a copy in your
EchoSign account.
\

Why use EchoSign:
•
Exchange, Sign, and File Any Document. In
Seconds!
Set-up Reminders. Instantly Share Copies
with Others.
See All of Your Documents, Anytime,
Anywhere.

To ensure that you continue receiving our emails, please add echosign@echosign.com to
your address book or safe list.

This e-mail message, including any attachments, is for the sole use of the
intended recipient(s) and may contain information that is confidential and
protected by law from unauthorized disclosure. Any unauthorized review, use,
disclosure or distribution is prohibited. If you are not the intended recipient,
please contact the sender by reply e-mail and destroy all copies of the original
message.

https://www.324mail.com/owa/?ae=Item&t=IPM.Note&id=RgAA... 1/6/2011

vjorvi^/w^ri /

vuuj

jr cunespunuciicc -

jdov^jv^

iwuuu...

rage j vi

j

any other person or entity for the purpose of avoiding penalties that may be
imposed on any taxpayer.
Uniform Electronic Transactions Act: Despite the Uniform Electronic
Transactions Act or the application of any other law of similar substance or
effect, in the absence of an express statement to the contrary in this e-mail
message, this e-mail message, its contents and any attachments, are not an
offer or acceptance to enter into a contract and are not otherwise intended to
bind the sender of this e-mail message or any other person.

https://www.324mail.com/owa/?ae=Item&t:=IPM.Note&id:=RgAA... 1/6/2011

ueriacn- vu uroiq

me lransier

rage z,ui

a

We have been trying to reach you so we may verify your transfer of title. Please let us
know when a good time to contact you would be.

Customer Care
Vacation Ownership Group
V O Group, LLC
Timeshare Protection, LLC

Telephone: 1-800-381-9469
1-800-537-2407 1 *
Fax:
Address:

Vacation Ownership Group
2900 Fire Rd suite 101
Egg Harbor Township, NJ 08234
Mailing:
P.O. Box 112

E-Mail:

Pleasantville NJ, 08232
customercare@vogroup.net

www.vogroup.net / www.vacationownershipgroup.com

Notice Regarding Federal Tax Issues: Any tax advice in this communication, is not intended or written
by us to be used, and cannot be used, by a client or any other person or entity for the purpose of
avoiding penalties that may be imposed on any taxpayer.
Uniform Electronic Transactions Act: Despite the Uniform Electronic Transactions Act or the application
of any other law of similar substance or effect, in the absence of an express statement to the contrary
in this e-mail message, this e-mail message, its contents and any attachments, are not an offer or
acceptance to enter into a contract and are not otherwise intended to bind the sender of this e-mail
message or any other person.

https://www.324mail.com/oway?ae=Item&t=IPM.Note&id=RgAA... 1/4/2011

\

EXHIBIT D

60
1

During execution of a search warrant at the VO

2

Group's office did agents find a VO Group client

3

information form at Reznick's desk which indicated that

4

Reznick was the sales representative responsible for

5

getting that money, $3,000, into the VO Group?

6

A.

Yes.

7

Q.

During an interview on January 4th, 2011, did an

8

individual whose initials are DG inform an FBI agent in

9

substance and in part that Reznick had called DG and said

10

he was contacting timeshare owners that had complaints

11

against Wyndham? <

12

A.

Yes.

13

Q.

Did Reznick further say that Wyndham had lied to

14

its customers and the VO Group was helping Wyndham

15

timeshare owners pay off timeshare mortgages?

16

A.

Yes.

17

Q.

Did Reznick say that he could settle DG's $28,000

18

i

Q.

timeshare mortgage debt for $14,500?

19

A.

Yes.

20

Q.

Did Reznick say that the reason he could make

21

this offer was because Wyndham had sold numerous mortgage

22

loans to various banks and the banks wanted to get the

23

loans off their books?

24

A.

Yes.

25

Q.

On or about October 27th did Reznick email DG and
FREE STATE REPORTING, INC.
Court Reporting Transcription
D.C. Area 301-261-1902
Balt. & Annap. 410-974-0947

61
1

direct DG where to send DG's $14,500 check to the VO

2

Group?

\
t

3

A.

Yes.

4

Q.

All right.

5

marking as Grand Jury Exhibit DG-1.

6

(Whereupon, Grand Jury

7

Exhibit DG-1 was

8

identified for the

9

record.)
BY MR. STIGALL:

10
11

Q.

And looking at this exhibit, first do you
'•

12

t

recognize as the email that Reznick sent?

13

A.

Yes.

14

Q.

All right.

15

And what does that email basically

instruct DG to do?
A.

16

To send the money to his attention t that they

17

would put the money in an escrow account when they receive

18

it.

19
20

Q.

Did DG send $14,500 to the V0‘ Group to pay off

the timeshare mortgage?

21

A.

Yes.

22

Q.

And has the investigation revealed that DG's

23

}

So I'm going to show you what I'm

timeshare mortgage debt was never paid off?

24

A.

That's correct.

25

Q.

Did DG get any money back from the VO Group?
FREE STATE REPORTING, INC.
Court Reporting Transcription
D.C. Area 301-261-1902
Ralt. & AnnaD. 410-974-0947

62
1

A.

No.

2

Q.

And during execution of the search warrant at the

3

VO Group's office by the way did agents find a "script for

4

calling" — that's the title of one the telephone

5

scripts — at Reznick's desk?

6

A.

Yes.

7

Q.

All right.

8

conspirator.

9

did an individual whose initials are EC inform an FBI agent

Let's talk about Ryan Bird, a co-

During an interview on November 23rd, 2010,

10

in substance and in part that an individual called by the

11

name of Matthew BVose and said that he had received EC's

12

complaint about EC's Wyndham timeshare?

13

A.

Yes.

14

Q.

Has the investigation revealed that Ryan Bird

15

used that alias Matthew Brose?

16

A.

He did, yes.

17

Q.

All right.

Did Brose tell EC he had EC's file in

18

front of him and that he worked directly with the banks and

19

the banks were offering unhappy timeshare owners the

20

ability to settle their timeshare mortgage for a discounted

21

price?

22

A.

Yes.

23

Q.

Did EC owe approximately $71,000 on the mortgage?

24

A.

Yes.

25

Q.

Did Brose explain that the banks were afraid of
FREE STATE REPORTING, INC.
Court Reporting Transcription
D.C. Area 301-261-1902
Rail-, fc Annan. 410-974-0947

EXHIBIT E
3

)

242
■MESISCA - DIRECT - OSWALD
1

MR. O'MALLEY:

2

THE COURT:

Mr. Riley?

3

MR. RILEY:

No, Judge.

4

THE COURT:

Mr. Jacobs?

5

MR. JACOBS:

6

THE COURT:

No, Your Honor.

No objection.
All right.

1280 in evidence.

You may

7

proceed.

8

(GOVERNMENT EXHIBIT G-1280 WAS RECEIVED IN EVIDENCE.)
MS. OSWALD:

9

Permission to publish 1280, Your Honor.

10

THE COURT:

You may publish.

11

(The exhibit was published to the jury.)

12

MS. OSWALD:

If we could have Bates Label 52, please.

13

BY MS. OSWALD:

14

Q.

15

before you?

16

A.

I do.

17

Q.

What does Ian Resnick say to Dorothy Gerlach about the

18

contract?

19

A.

On October 22nd, 2010?

20

Q.

Yes.

21

you.

22

A.

Special Agent Mesisca, do you have the hard copy of 1280

Which I believe should be on Bates Label 52 before

I have it.

23

It says, "Yes, unless there is a new location you prefer.

24

Give me a call when you're able" -- "when you are both able to

25

receive the contract.

I will walk you through it.

United States District Court
(Camrten .

Wpw ,le*r<ip>\7

Thanks,

243
•MESISCA - DIRECT - OSWALD
1

Ian B. Resnick, Senior Contract Analyst, Vacation Ownership

2

Group."

3

Q.

Thank you.
Your Honor, to remind the jury what type

MS. OSWALD:

4
5

of deal this was, could I have permission to publish 120G(16)

6

in evidence?

7

THE COURT:

You may.

120G(16) in evidence.

8

(The exhibit was published to the jury.)

9

MS. OSWALD:

And if we could highlight the top half,

10

please, to include Paragraph 3.

11

BY MS. OSWALD: ’

12

Q.

13

October 22nd

14

Page 50 of Government Exhibit 1280?

15

A.

What does Ms. Gerlach ask Ian Resnick in her
- I'm^sorry — October 27th e-mail which is on

Her question was -MR. O'MALLEY:

16
17

I'm sorry, counsel.

MS. OSWALD:

19

MR. O'MALLEY:

21
22

Could we give — it's not on the right

screen.

18

20

Thank you.

I don't think it's on the -right

screen.
THE COURT:

Could you direct Ms. Frederick to the

particular page that you're directing the witness to?
Certainly, Your Honor.

23

MS. OSWALD:

24

MR. O'MALLEY:

25.

(Pause.)

Thank you.

United States District Court
nxmri&r) .

KTtzw ,7pt.cipu

244
■MESISCA - DIRECT - OSWALD
THE COURT:

1
2

It just — it should be consistent.

3

(Pause.)

4

MS. OSWALD:

5

Or take it down if you wish to publish.

We are on Page 2 of the revised 1280,

Your Honor.

6

(The exhibit was published to the jury.)

7

THE COURT:

8

MS. OSWALD:

9

All right.
Which is now before the Court and

counsel.

10

THE COURT:

Thank you, Ms. Oswald.

11

BY MS. OSWALD:

12

Q.

13

asking Ian Resnick in her October 27th, 2010, e-mail?

14

A.

15

Box 112, Pleasantville, New Jersey, address?"

16

And did Ian Resnick e-mail her back?

17

Q.
A.

18

Q.

And what did he say?

19

A.

"Just put it to my attention.

20

account for you when we receive it."

21

Special Agent Mesisca, essentially what is Ms. Gerlach

The question was posed to him, "Do I send it to the PO

Yes.

MS. OSWALD:

We will set up an escrow

And sorry, Ms. Frederick, if we could

22

flip back to 120G(16).

23

BY MS. OSWALD:

24

Q.

25

October 27th, 2010?

Special Agent Mesisca, where did the Gerlachs live on

United States District Court
Opmrfpn.

N&w Jptspu

245
■MESISCA - DIRECT - OSWALD
1

A.

In Oregon.

2

Q.

What, if anything, does that tell you about whether the

3

e-mails exchanged between Ian Resnick and Dorothy Gerlach

4

involved interstate wire communications?

5

A.

6
7
8
9
10
11

It did, yes.
THE'COURT:

Ms. Oswald, for planning purposes, 4:27.

I would like to conclude at 4:30.
MS. OSWALD:

Could we go to sidebar with counsel for

a moment, Your Honor?
THE COURT:

If it's going to go more than three

minutes, I'm going to let the jury go home for the day.

12

MS. OSWALD:.

13

THE COURT:' All right.

14

(The following occurred at sidebar.)

15

THE COURT:

16
17

No, it won't be.

Let's see if we can do it in less than

three minutes.
MS. OSWALD:

Okay.

Basically, essentially, Your

18

Honor, my question is that t as the Court and counsel can tell,

19

we had some additional exhibits, some of which were redacted

20

down, some of which were modified, and I just wanted to put

21

the question to counsel to see, if I could, if there would be

22

any objection to entering those exhibits, particularly the

23

bank records, because they will affect whether the financial

24

schedules, about which Jennifer Atkinson will testify

25

tomorrow, need to be modified.

And, as counsel is aware,

United States District Court
rxmH&n.

Mpw Jprspv

\

EXHIBIT F

received
APR 3 0 2013

PROB 72
(7/96)

Page I of__

U.s. PROBATION OFFICE
NEWARK, NJ

UNITED STATES DISTRICT COURT FOR THE
DISTRICT OF

RECEIVED

Declaration of Victim Losses

m 0 6 2013
us. PROBATION OFFICE

)

United States
V.
Eric Reilly et al.

G

/

CAMDEN. NJ
/

)
)
)

13-00067-001________
(Case Number) \/

5^

I, Dorothy Gerlach
. residing at
in the city (or county) of \/$/' r Ict/lsJ
. in the state of
i
am a victim in,the above referenced £ase and I believe that I am entitled to restitution in the total -o
amount of $^7f£_.' '
^

r\

My specific losses as a result of this offense are summarized as follows:

U)& oou\\ra..cfecl
(piM'cka^p 3&0 K (Xy^ AA
foirds
for $ Kj • 6 iC - uJj> rec e* Oed c&rdra d s cunel
cA
aaryp/Aeds fas' £?> I L P* I1 irk.. c\fhsla*d wet balana?

if ll<3JCftoMs uJu.oLa.f- ^(2&5 XL noX

JOffdS have^mi^^mpemked^insurance or another source with respect to all or a portion
. The name and address of my insurance company and
of my losses in the amount of S /0
the claim number for this loss are/ds follows:
I declare under penalty of perjury that the foregoing is true and correct.

mdik/ QjAlfL^__
(Signature) n
Executed on
A- 7 Day of

(loni Ant\
(Additional Pages May be Attached)

C‘ l

vjjojx^^-vv^jti

/ v kj ui\wur uuucspuuucncc - i^iuamug. nooivj...

ro.gt luu

GERLACH / VO^OUP correspondence - Emailing:
ASSIGNMENT OF CONTRACT - gerlach.docx
Dorothy Gerlach [dgerlach@us.ibm.com]
Sent:

Thursday, January 06, 2011 1:00 PM

To:

Theibault, Claudia H.
Attachments: ASSIGNMENT OF CONTRACT - g~l.pdf (121 KB)

Claudia We have not signed this - the document identifies points at Wyndam Pagosa and
Wyndam Smokies Our original points were at Bali Hai on Kauai. VO Group committed earlier to the
same number of points we purchased at the same location.l
Sincerely,

V

Dorothy Gerlach
IBM Corporation
West IMT STG Cloud Sales Leader
503-578-2342 office / fax
503-957-9090 cell
dgerlach@us.ibm.com
— Forwarded by Dorothy Gerlach/Portland/IBM on 01/06/2011 09:56 AM
From:

"V O GROUP LLC" <vogroup@vogroup.net>

To:

Dorothy Gerlach/Portland/IBM@IBMUS

Cc:

<eric.gerlach@fredmeyer.com>

Date:

12/01/2010 01:09 PM

Subject:

Emailing: ASSIGNMENT OF CONTRACT - gerlach.docx

Please Sign and Return to complete transfer of Deed. .

https://www.324mail.com/owa/?ae=Item&t=IPM.Note&id=RgAA... 1/6/2011

Disclaimer

The V 0 Group™ client's manual is meant to serve our clients and help
them understand the process and procedures when utilizing any of our
services. The V 0 Group reserves the right to change our programs at
any time without any prior notice. The V 0 Group client manual is not a
legally binding agreement and we cannot be held liable to any changes in
our processes or procedures. Our company accepts no liability for the
content of this Manual, or for the consequences of any actions taken on
the basis of the information provided, unless that information is
subsequently confirmed in writing. If you are not the intended recipient
you are notified that disclosing, copying, distributing or taking any action
in reliance on the contents of this information is strictly prohibited.
>
>
>
>
>
>

The Vacation Ownership Group, LLC
Vacation Ownership Protection Program
MY 500 REFERRAL PROGRAM
TAKE MY PLACE RENTAL DIVISION
VO Group Club Membership
VO Group, LLC

Are Trademarked names owned by the Vacation Ownership Group, LLC.

© 2010 V O Group, LLC.
All Rights Reserved

-31-

CJLKLACJti / VO (JKOUF correspondence - -Title-Transfer

rage 3 or 4

K

You have not been trutruul with much of our communicauon and we do not want
to continue with this transaction.
Please let us know how soon we can expect our refund.

i
r

Thank you.
Sincerely,
Dorothy Gerlach
IBM Corporation
IT Optimization Client Solutions
503-578-2342 office / fax
503-957-9090 cell
dgerlach@us.ibm.cbm

;

— Forwarded by Dorothy Gerlach/Portland/IBM on 01/04/2011 11:01 AM
'V O GROUP LLC" <vbgroup@vogroup.net>

From:

«i

To:

Dorothy Gerlach/Portland/IBM@IBMUS

Date: .

01/03/2011 02:46 PM
Title Transfer

Subject:

!
>

I

*

We have been trying to reach you so we may verify your transfer of title. Please let us
~ know When a good time to contact you would be.

Customer Care
Vacation Ownership Group
VO Group,LLC
^tihe§hareTiffi^ionTLLC

'4
-!*1
4

https ://www.324mail. com/owa/?ae=Item&t=IPM.Note&id=RgAA... 1/6/2011

Uerlacii - VU Ciroup - Title Transfer

rage i oiz

Gerlach - VO Group - Title Transfer
Dorothy Gerlach [dgerlach@us.ibm.com]
Sent: Tuesday, January 04, 2011 1:50 PM
To:

Theibault, Claudia H.

Claudia Thanks for talking to me this morning. I just left you a VM also.
I will send you the email correspondence between VO Group and us.
Below is a note we got from VO Group yesterday - asking us to verify out title
transfer - We have not signed the paperwork for the title transfer - since we were
not getting "like for like" - or points at Bali Hai in Kauai where we purchased the
orginal points from Wyndam,
'
Does it make sense for us at this point since we've paid the money to tell VO
Group we want our money back since they are not providing what they
promised....and see what happens?
THANKS

Sincerely,
Dorothy Gerlach
IBM Corporation
IT Optimization Client Solutions
503-578-2342 office / fax
503-957-9090 cell
dgerlach@us.ibm.com
Forwarded by Dorothy Gerlach/Portland/IBM on 01/04/2011 10:44 AM
From:

"V O GROUP LLC" <vogroup@vogroup.net>

To:

Dorothy Gerlach/Portland/IBM@IBMUS

Date:

01/03/2011 02:46 PM
Title Transfer

Subject:

https://www.324mail.eom/o wa/?ae=Item&t=IPM.Note&icHRgAA... 1/4/2011

i1

/

v \j vjxwx/x

iianoxv/i

jl

ugv T \Ji.

r

Telephone: 1-800-381-9469
1-800-537-2407
Fax:
Vacation Ownership Group
2900 Fire Rd suite 101
Egg Harbor Township, NJ 08234
Mailing:
P.O. Box 112
Pleasantville NJ, 08232
customercare@vogroup.net
E-Mail:
www.vogroup.net / www.vacationownershipgroup.com

Address:

T

Notice Regarding Federal Tax Issues: Any tax advice in this communication, is not intended or written
by us to be used, and cannot be used, by a client or any other person or entity for the purpose of
avoiding penalties that may be imposed on any taxpayer.
Uniform Electronic Transactions Act: Despite the Uniform Electronic Transactions Act or the application
of any other law of similar substance or effect, in the absence of an express statement to the contrary
in this e-mail message, this e-mail message, its contents and any attachments, are not an offer or
acceptance to enter into a contract and are not otherwise intended to bind the sender of this e-mail
message or any other person.

https://www.324mail.com/owa/?ae=Item&t=IPM.Note&id-RgAA... 1/6/2011

EXHIBIT D
\
/

*>i

